<html>
<title> - A NEW INITIATIVE TO COMBAT CHILD HUNGER</title>
<body><pre>[Senate Hearing 109-934]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-934
 
                A NEW INITIATIVE TO COMBAT CHILD HUNGER

=======================================================================

                                HEARING



                               BEFORE THE



                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE



                       ONE HUNDRED NINTH CONGRESS



                             SECOND SESSION



                               __________

                           SEPTEMBER 26, 2006

                               __________



       Printed for the use of the Committee on Foreign Relations


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html


                    U.S. GOVERNMENT PRINTING OFFICE
36-451                      WASHINGTON : 2007
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


                     COMMITTEE ON FOREIGN RELATIONS

                  RICHARD G. LUGAR, Indiana, Chairman

CHUCK HAGEL, Nebraska                JOSEPH R. BIDEN, Jr., Delaware
LINCOLN CHAFEE, Rhode Island         PAUL S. SARBANES, Maryland
GEORGE ALLEN, Virginia               CHRISTOPHER J. DODD, Connecticut
NORM COLEMAN, Minnesota              JOHN F. KERRY, Massachusetts
GEORGE V. VOINOVICH, Ohio            RUSSELL D. FEINGOLD, Wisconsin
LAMAR ALEXANDER, Tennessee           BARBARA BOXER, California
JOHN E. SUNUNU, New Hampshire        BILL NELSON, Florida
LISA MURKOWSKI, Alaska               BARACK OBAMA, Illinois
MEL MARTINEZ, Florida
                 Kenneth A. Myers, Jr., Staff Director
              Antony J. Blinken, Democratic Staff Director

                                  (ii)

  
?

                            C O N T E N T S

                              ----------                              
                                                                   Page

Gerberding, Dr. Julie, Director, Centers for Disease Control and 
  Prevention, Waashington, DC....................................    11
     Prepared Statement..........................................    14
Kunder, James, Acting Deputy Administrator, U.S. Agency for 
  International Development, Washington, DC......................     3
    Prepared statement...........................................     5
Lugar, Hon. Richard G., U.S. Senator from Indiana, opening 
  statement......................................................     1
Morris, James T., executive director, United Nations World Food 
  Program, New York, NY..........................................    24
    Prepared statement...........................................    27
Veneman, Hon. Ann, executive director, United Nations Children's 
  Fund, New York, NY.............................................    29
     Prepared statement..........................................    31
Ward, Hon. George, senior vice president for international 
  programs, World Vision, Washington, DC.........................    20
    Prepared statement...........................................    22

                                 (iii)

  


                A NEW INITIATIVE TO COMBAT CHILD HUNGER

                              ----------                              


                      TUESDAY, SEPTEMBER 26, 2006

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:00 a.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Richard G. 
Lugar, (chairman of the committee) presiding.
    Present: Senators Lugar and Sarbanes.

 OPENING STATEMENT OF HON. RICHARD G. LUGAR, U.S. SENATOR FROM 
                            INDIANA

    The Chairman. This hearing of the Senate Foreign Relations 
Committee is called to order.
    This morning, the committee meets to examine the issue of 
global child hunger and malnutrition. In recent years, the 
committee has held hearings on global nutrition issues and the 
intersection of hunger and the HIV/AIDS crisis. These inquiries 
have underscored that societies and nations that experience 
high levels of hunger and malnutrition rarely function well. 
Consistent nutrition is an essential component of long-term 
economic growth and geopolitical stability. We have also 
reaffirmed that the most basic act of human charity is feeding 
a hungry person. It's my belief that the United States should 
extend such assistance wherever possible, both because we have 
a moral responsibility to do so and because our security and 
our prosperity depend upon what happens overseas.
    We're extremely fortunate to be one of the great food 
producers in human history. We're also fortunate that we have 
many creative and compassionate leaders, some of whom are with 
us today, who have applied their talents to addressing world 
hunger, often in the face of desperate circumstances.
    Tragically, many people around the world continue to face 
hunger and malnutrition. An estimated 850 million people go 
hungry. Most of them are among the world's poorest. For the 
estimated 1 billion people around the world living on less than 
$1 per day, obtaining adequate nutrition is a challenge under 
normal circumstances. When this population faces a crisis that 
intensifies food insecurity, such as the locusts that 
devastated crops in West Africa 2 years ago, the drought in 
Malawi last year, or the genocidal violence in Darfur, 
obtaining sufficient nutrition is nearly impossible.
    As we discovered in a 2004 hearing, the AIDS pandemic is 
decimating the agricultural sector in sub-Saharan Africa. As a 
result, the rate of malnutrition is actually increasing on the 
African continent. This is a sobering trend, given the science 
and technology at our disposal in the 21st century, and it must 
be reversed. Although famine and starvation are the most severe 
and visible forms of hunger, poor nutrition, which often goes 
unnoticed, can also be deadly. And often, malnutrition is 
caused not by scarce food supplies or by poor sanitation and 
disease. Even adequately fed people can become malnourished if 
their bodies are afflicted with diarrhea or parasites. In 
addition, gender inequities, the lack of nutritional education, 
and certain cultural practices have led to malnutrition in some 
regions of the world.
    Hunger and malnutrition are especially devastating to young 
children. An estimated 5 to 6 million children die each year 
from infections and disease caused by malnutrition. Nearly one-
third of the children in the developing world are underweight 
or have had their growth stunted. Even before birth, 
malnutrition impacts a child's development. We know that the 
children of malnourished mothers often suffer irreversible 
physical and cognitive damage.
    Hunger and malnutrition also perpetuate poverty and 
undermine economic growth, development, and political stability 
in the developing world. Malnutrition often causes poor 
performance in school, which, in turn, leads to an overall loss 
in an individual's productivity. If the situation is common 
among a nation's youth, it becomes very difficult to make 
economic advances based on education.
    Nations understood the critical link between malnutrition 
and poverty when they pledged, in 2000--the year 2000--to meet 
the Millennium Development Goals, the first of which is to 
eradicate extreme poverty and hunger. Specifically, these goals 
call on the world community to halve, by 2015, the proportion 
of people who suffer from hunger. The primary measurement for 
this goal is the percentage of children younger than 5 who are 
underweight. Achieving the first goal goes hand-in-hand with 
the fourth Millennium Development Goal, which is to reduce by 
two-thirds the child mortality rate in the developing world.
    As chairman of this committee and a former member of the 
Agriculture Committee, I have advocated a nutrition program for 
the poor and for children in our country and abroad, and I'm 
hopeful that, as a result of our testimony today, we will 
better understand the causes of hunger and the malnutrition in 
children and the impact these conditions have on individual 
health and the advancement of developing societies. Most 
importantly, we hope to learn about new initiatives to address 
this problem.
    We're pleased to be joined today by a stellar panel of 
experts who are on the front lines of the fight against hunger. 
We welcome Mr. James Kunder, Acting Deputy Administrator for 
USAID; Dr. Julie Gerberding, Director of the Centers for 
Disease Control and Prevention; Mr. James T. Morris, executive 
director of the World Food Program; Ms. Ann Veneman, executive 
director of UNICEF; and Ambassador George Ward, World Vision's 
senior vice president for international programs.
    Each panelist will discuss his or her organization's 
efforts to combat child hunger and malnutrition, and comment on 
new initiatives to address this problem. We thank our witnesses 
for being with us today. We look forward to an important and 
hopefully enlightening discussion with each one of them.
    Let me mention that the statements that each of the 
witnesses has prepared will be placed in the record in full, so 
you need not ask for permission that that occurs. It will. And 
we will ask that you proceed--I will not have a rigorous time 
limit. Our desire is to hear from you and to have a full 
discussion of your testimony. I would suggest that, to the 
extent that your remarks are in the 10-minute area, plus or 
minus a bit, that that would be helpful. We expect that we'll 
be joined by other members of the committee, and we'll have a 
round of questions as they arrive and the testimony is 
complete. But we'll hear from all five witnesses, so that all 
five are heard completely, before we begin our questioning.
    And I will ask that the witnesses testify in the order that 
they are included in our agenda for the meeting. This is 
somewhat different from the order that I introduced you in my 
remarks, but let me just go through the order again. We will 
have Mr. Kunder, Dr. Gerberding, Ambassador--or, rather, 
President Ward, Mr. Morris, and then Secretary Veneman.
    So, I will ask you, first of all, to start off, Mr. Kunder. 
We welcome you back to the committee. And thank you for coming 
today, for your testimony.

 STATEMENT OF JAMES KUNDER, ACTING DEPUTY ADMINISTRATOR, U.S. 
      AGENCY FOR INTERNATIONAL DEVELOPMENT, WASHINGTON, DC

    Mr. Kunder. Thank you, sir, and we very much appreciate the 
committee holding this important hearing. I appreciate your 
letting me go first. This is an extraordinarily distinguished 
panel, and I am, by far, the least distinguished member of it, 
so--I want to pay special tribute, as he leaves the presidency 
of the World Food Program, to Jim. He has been an extraordinary 
leader in the development community, and specifically on this 
issue of battling hunger around the world. I've had the 
opportunity to work with the superb organization he heads many 
times while I was Director of USAID's Office of Foreign 
Disaster Assistance. It is an extraordinary organization, and 
he is an extraordinary individual, and he has made signal 
contributions to the battle against hunger around the world.
    The amount of assistance that the U.S. Government focuses 
on food assistance and battling the problems that the chairman 
has just outlined is substantial. In terms of contributions to 
the World Food Program alone, the average contribution by the 
U.S. Government in the last several years has been just short 
of a billion dollars a year, so substantial U.S. Government 
resources are going to this area. And, of course, one of the 
critical issues is, as you pointed out, that there are many 
drivers of the staggering and sad statistics that you noted. I 
mean, not only is the assistance--direct food assistance and 
direct nutritional assistance--critical, but building 
institutions around the world and building government 
capacities to take care of the needs of their own citizens are 
equally important parts of the toolbox to battling child hunger 
in the world.
    USAID approaches this problem with a strategic plan that 
has four basic components to it, and I'll summarize those very 
briefly:
    The first strategic component is to raise agricultural 
production around the world, so there are substantial 
investments in improving agricultural productivity. I 
mentioned, during my statement to the committee just several 
weeks ago, that, for example, we understand the role of 
America's universities and agriculture extension services as 
important components, so we invest in creating similar 
institutions overseas.
    The second is what we call the question of access to food, 
and that has physical manifestations, in terms of 
infrastructure. But it also has to do with incomes, because, as 
all the witnesses know, and as the committee knows, many times 
there is adequate food in the society, but the poorest of the 
poor simply can't afford to access that food. And it has health 
aspects, because if children are wracked with diarrhea and 
other childhood diseases, the nutrients they are receiving 
aren't sustaining their bodies. So, the second area we focus on 
is access to food.
    The third area is response in emergencies. And, 
unfortunately, this is an area where an increasing share of 
U.S. food assistance overseas is going for the many emergencies 
we face around the world. That $970 million figure I mentioned, 
in terms of the U.S. Government support for the World Food 
Program--the proportion of that going to emergencies and the 
share of our Food for Peace Program that is going to using food 
for a long-term development component is, unfortunately, 
increasing. That is to say, there are more and more crises 
around the world that we're responding to.
    And, fourth, in terms of USAID's strategy, we do focus 
specifically on maternal and child nutrition interventions, 
specific programs to improve feeding programs and access to 
food by women and children around the world.
    The issues that WFP has raised, and that Jim has raised, in 
terms of the need for greater coordination, is, in our view, 
right on the money. There are a lot of resources going into the 
problems the chairman outlined, but what we need to do is 
focus, make sure we're getting maximum use of the taxpayers' 
dollars.
    Just to give you one example that the staff at USAID 
brought to my attention before this hearing, what we've done, 
effectively, around the world, as we've tried to bring this 
very successful polio eradication program to a conclusion, once 
you reach the isolated target audiences for polio eradication, 
we were doing vitamin A supplementation at the same time. The 
unfortunate result of our relative success around the world is, 
as the number of these polio immunization centers goes down, 
then we lose the ability to reach into these very isolated 
communities with vitamin A supplementation, as well. So, we've 
got to think very carefully about how we're getting the 
absolute maximum coordination in the field, so that these 
various interventions, brought to the field by all the 
organizations at this table, and many others, are achieving the 
maximum synergy among them.
    I'll stop there, Mr. Chairman. My testimony goes into great 
detail about the various programs that USAID is doing. But we 
very much support the ideas brought to the table by World Food 
Program, UNICEF, and many other organizations about the need to 
get better coordination in the field. We think this is a 
particularly complex issue, because the drivers of childhood 
malnutrition are so complicated. We invest, for example, in 
improving community service organizations and community-based 
organizations around the world. Now, at USAID, when we report 
to the Congress, such efforts can show up as democracy-and-
governance interventions, and they may not show up as nutrition 
interventions or food or health interventions. But, of course, 
one of the ways we can most help achieve coordination and 
effective targeting is to build up the community-based 
organizations in Africa and Southern Asia and the other areas 
in which we work.
    So, this is an enormous coordination issue, as well as an 
enormous resource issue, and we look forward to working with 
the committee, with the organizations represented at the table, 
and the hundreds of other NGOs and international organizations 
involved in this fight, to improve the ability to tackle these 
problems.
    Thank you, sir.
    [The prepared statement of Mr. Kunder follows:]

 Prepared Statement of Hon. James Kunder, Acting Deputy Administrator, 
       U.S. Agency for International Development, Washington, DC

    Mr. Chairman, thank you for the opportunity to join you again, this 
time to share with you an overview of USAID's strategy to combat hunger 
among children of the world. Here at the table with me are the true 
experts in that field, but I am glad to represent the experts at U.S. 
Agency for International Development (USAID) who partner with the 
experts in these great organizations around the world.
    Across the world some 10.8 million children under 5 years of age 
die every year. Most of these deaths are preventable and almost all 
occur in poor countries. I recognize the enormous impact of child 
hunger and malnutrition on future development and as an underlying 
cause of the deaths of these millions of children. For that reason, I 
welcome this opportunity to discuss what USAID is doing to reduce this 
awful and unnecessary blight on the world's future.
    According to U.N. estimates, currently, 296 million undernourished 
children live in the developing world. Other estimates are even higher. 
For many of these children, the damage from hunger and malnutrition can 
be life-long. Almost all nutritional deficiencies impair immune 
function and other host defenses leading to a cycle of longer lasting 
and more severe infections and ever-worsening nutritional status. 
Hunger leads to physical stunting, lowers intelligence, and increases 
susceptibility to diseases, dramatically increasing health care costs 
and severely limiting their full potential to contribute to nation 
building.
    USAID programs recognize that well-nourished children rarely die 
from diarrhea and common childhood infections, and maintaining good 
nutritional status is an integral part of improving child survival. 
USAID interventions are designed to decrease child and maternal 
mortality; reduce crippling healthcare costs; and boost intellectual 
and physical potential and national productivity.
    I would like to tell you what USAID is doing in five key areas of 
child hunger and nutrition: 1) Reducing micronutrient deficiencies; 2) 
food fortification; 3) expanding exclusive breastfeeding and 
appropriate infant feeding; 4) nutrition in emergencies; and 5) 
sanitation, hygiene and nutrition.

                 1. REDUCING MICRONUTRIENT DEFICIENCIES

    Vitamins and minerals--micronutrients--are essential components of 
good nutrition. Without micronutrients, bodies and minds are weakened 
and cannot resist many common diseases. For decades, USAID has been a 
leader in addressing micronutrient deficiencies, primarily through 
support of targeted supplementation and food fortification programs. 
USAID supports developing countries to ensure national distribution of 
vitamin A supplements to young children every 6 months and in the 
development and implementation of programs that fortify commonly 
consumed foods with combinations of vitamins and minerals missing or 
limited in the diet.
    USAID supported much of the initial research that identified the 
crucial links between micronutrients and child health and then helped 
developing countries deliver these essential nutrients to their 
children. USAID supports advocacy, policy development, health worker 
training and supervision, monitoring, logistics, and distribution 
support.
    Vitamin and mineral deficiencies contribute to extensive health 
problems and deaths throughout developing countries. Three of them--
vitamin A, iron, and iodine--have been shown to profoundly affect child 
survival, women's health, educational achievement, adult productivity, 
and overall resistance to illness. More recently, with evidence from 
new USAID-supported research showing the importance of zinc deficiency 
and increased morbidity and mortality during diarrhea episodes, USAID 
has included zinc in its programs.
    Women and children commonly make up the most vulnerable segment of 
societies with high rates of micronutrient deficiencies. Micronutrient 
deficiencies can result in serious health consequences including birth 
defects, maternal death, childhood mortality, blindness, anemia, and 
increased vulnerability to infections. Additionally nonhealth 
consequences include lower IQ, poor academic performance, and reduced 
work productivity.
Vitamin A supplementation
    Vitamin A deficiency alone affects as many as 120 million children 
under 5, reducing their ability to survive common childhood illnesses 
and causing a million child deaths each year. These children suffer 
more severe and prolonged illnesses and are more likely to die from 
common infections such as measles and diarrhea than a well-nourished 
child. Approximately half a million children deficient in vitamin A 
become blind every year. Half die within a year of becoming blind.
    For more than 20 years, USAID has supported research into vitamin 
A. Vitamin A mobilizes the body's immune system and makes it stronger, 
and it heals submicroscopic cracks between cells in the body's armor--
the epidermis and intestine and lungs--which blocks invasion by outside 
organisms. USAID-funded research has demonstrated that vitamin A 
supplementation prevents child blindness and reduces child mortality by 
an average of 23 percent in deficient populations. USAID is also 
supporting groundbreaking scientific inquiry into the role of vitamin A 
in reducing maternal deaths.
    USAID-sponsored National Immunization Days (NIDs) for polio have 
provided many countries with the opportunity to supplement children 
with vitamin A at the same time, making this distribution mechanism one 
of the most successful in the world. But as progress toward eradication 
of polio is made, NIDs are being phased out in countries, and new 
solutions need to be developed for vitamin A supplementation programs. 
One of the solutions pioneered by USAID in the late 1990s was Child 
Health Weeks, which are now the primary method of distribution in 15 
percent of countries and achieve 70 percent coverage on average.

  <bullet> USAID and its partners have helped increase global vitamin A 
        coverage in children 6-59 months from 50 percent in 1999 to 68 
        percent in 2004. In 2004 alone UNICEF estimates that 500,000 
        children were saved.
  <bullet> USAID is currently working on vitamin A supplementation in 
        17 key countries where this is a major health problem.
Anemia prevention
    Anemia affects about 2 billion people across the globe. Half of all 
cases of anemia are due to iron deficiency. Iron deficiency anemia 
often goes unreported because there are no outward symptoms to report. 
The anemia prevention package promoted by USAID programs includes 
deworming, malaria prevention and treatment, and iron supplementation 
activities.
    Overall, about 24 percent of maternal and 22 percent of perinatal 
mortality in developing countries is attributable to iron deficiency 
anemia. Even modest reductions in the severity of anemia can reduce 
deaths. USAID's strategic approach is focused on two key areas. First, 
USAID conducts research on the safe delivery of iron to women and 
children, including those in malaria endemic areas. Second, USAID is 
expanding Anemia Intervention Packages to tackle the main causes of 
anemia, namely inadequate intake/poor absorption (food fortification, 
iron supplementation), malaria (intermittent preventive therapy, bed-
nets, indoor residual spraying), and intestinal parasite (deworming).
    In order to reduce the anemia that increases the risk of a mother 
dying in childbirth, as well as the likelihood that the baby will be 
born prematurely or with low birth weight, USAID has worked to raise 
the profile of anemia control for women and children on country 
national health agendas, and USAID is helping governments develop 
programs to address the multidimensional problem with an integrated 
approach.
    Since 1995, USAID has supported anemia programs in more than 25 
countries, including:

  <bullet> Nicaragua, where coverage with prenatal iron rose from 70 
        percent to 88 percent, and the prevalence of anemia in pregnant 
        women fell by one-third from 2000-2003. In the same time 
        period, coverage of children, ages 6-59 months, with iron 
        supplements improved from 37 percent to 62 percent, and anemia 
        fell from 29 percent to 23 percent.
  <bullet> India, where the prevalence of anemia fell by 25 percent 
        among participants in a USAID program to increase intake of 
        iron folic acid supplements (IFA) and control infections with 
        malaria and parasitic worms in pregnant women. Service delivery 
        was improved by using Anganwadi Centers as distribution sites 
        for IFA for both pregnant women and adolescents; and, using the 
        twice-annual ``catch-up'' rounds to distribute IFA to pregnant 
        women.
Iodine
    In 1990, about 1.6 billion people, or 30 percent of the world's 
population, lived at risk of iodine deficiency disorder (IDD); some 750 
million people suffered from goiter, mainly because of chronically low 
iodine intake. An estimated 43 million were affected by some degree of 
brain damage as a result of inadequate iodine intake before or during 
infancy and early childhood--largely the consequence of living in 
mountainous or flood-plain regions where erosion has caused the local 
soil and crops to contain too little iodine for healthy thyroid 
function.
    Since 1999, USAID has funded over $22 million for universal salt 
iodization (USI) and elimination of iodine deficiency disorders in 43 
countries through a partnership with UNICEF and Kiwanis. This has 
resulted in a dramatic increase in the consumption of iodized salt. 
Today, thanks to these efforts, 82 million newborns are now being 
protected from learning disabilities caused by iodine deficiency 
disorders. Overall consumption of iodized salt has increased in poor 
countries from 20 percent of households in 1990 to over 70 percent 
today. Successes include:

  <bullet> In sub-Saharan Africa, the regional average for households 
        using salt containing 15ppm or more of iodine is 64 percent. 
        Two notable countries are Uganda and Kenya, where USAID has 
        invested US $589,000 and $250,000, respectively, since 1999. As 
        a result, over 90 percent of households in both countries 
        consume adequately iodized salt.
  <bullet> In Asia, USAID has invested heavily in Bangladesh and 
        Indonesia. Both countries have obtained household coverage 
        rates that are significantly higher than the regional average 
        coverage of 49 percent-70 percent and 73 percent, respectively.
Zinc
    Zinc supplementation, a simple and inexpensive intervention, not 
only decreases the duration and severity of diarrheal disease, but also 
reduces the risk of occurrence of diarrhea among children under 5.
    In the last 6 years, USAID has sponsored research on zinc in both 
the prevention and treatment of major illnesses like acute respiratory 
infections, diarrheal diseases, malaria, and low birthweight.
    Diarrhea remains a leading cause of child deaths worldwide. Every 
year more than 1.5 million children under the age of 5 die as a result 
of acute diarrhea despite the availability of effective low-cost 
therapies to manage diarrhea cases. Clinical and field studies have 
consistently shown that when children with diarrhea receive 20 mg of 
elemental zinc for 10-14 days in conjunction with oral rehydration 
solution, the duration of the episode shortens by 24 percent, severity 
is reduced (24 percent less admission to hospital), and there is a 
preventive effect for future episodes. Overall, diarrhea incidence 
rates decrease 15 percent, and there is a 42 percent reduction in 
treatment failure or death. USAID has been a major contributor to the 
research leading to these findings. In 2004, WHO and UNICEF issued a 
joint statement recommending the use of zinc during diarrhea as an 
adjunct treatment to oral rehydration therapy (ORT).
    USAID is disseminating and implementing these recommendations to 
decrease the burden of disease related to diarrhea, and improve the 
immunity of children by focusing on ensuring the availability of low-
cost, quality zinc products for international procurement by working 
with the private sector internationally and in country.
    By 2007, USAID will be supporting the introduction and expansion of 
this program in 15 countries. In order to achieve this, USAID is 
working with partners to ensure that policy is translating into 
standard treatment guidelines and training materials for health 
workers. Partnering with pharmaceutical companies is facilitating the 
production of zinc dispersible tablets, and leveraging their marketing 
and distribution divisions to accelerate the distribution of zinc to 
public and private sector health facilities. NGOs and social marketing 
groups subsidize the treatment for those with limitations to pay.

                         2. FOOD FORTIFICATION

    Food fortification is perhaps the most generally applicable 
approach to micronutrient deficiencies. Beginning in the 1940s, the 
industrialized world has broadly embraced fortification, fortifying 
flour, salt, milk, and butter and margarine with a range of nutrients. 
Food fortification in now being introduced into the developing 
countries as large-scale food processing has become available.
    More than 2 billion people worldwide lack sufficient quantities of 
zinc, vitamin A, iron, and iodine, which are now being added to 
processed foods such as rice and sugar under USAID-supported programs.
    USAID is improving the micronutrient content of basic foods by 
expanding research, development, and dissemination of biofortified 
crops--enhanced vitamin A, iron, and zinc maize; enhanced iron and zinc 
beans; and vitamin A enhanced sweet potato--and through 
supplementation.
    Food fortification is a proven way for public and private sectors 
to join in ending nutrition deficiencies for a sustainable solution. 
USAID has been working to fortify foods for three decades and continues 
to accelerate and expand food fortification programs as one of the most 
effective, long-term strategies to reduce micronutrient malnutrition. 
USAID and the Centers for Disease Control and Prevention (CDC) are 
working together to improve monitoring and evaluations systems to 
ensure public health impact.
    Through the Global Alliance for Improved Nutrition (GAIN), USAID is 
directly supporting 22 programs in 19 countries around the world that 
fortify staple foods and condiments with iron, iodine, vitamin A, and 
other micronutrients. When at scale, these programs are expected to 
reach over 486 million people with fortified foods such as corn meal, 
wheat flour, and soy sauce.
    USAID and the Bill and Melinda Gates Foundation joined forces to 
create GAIN and this successful collaboration continues in order to 
identify new partners for this alliance. GAIN is an excellent example 
of the public and private sectors working together for global change, 
cited by Ending Child Hunger and Undernutrition Initiative. GAIN will 
serve as a catalyst to mobilize the efforts, expertise, and resources 
of the public and corporate sectors, toward the shared vision of 
reducing micronutrient malnutrition. Commercial sector companies in 
both developing and developed countries are critical partners in the 
success of GAIN.

  <bullet> Since 1993, 30 countries have implemented food fortification 
        programs with USAID support, either through a centrally funded 
        program, bilaterals, or our partnership with GAIN.
  <bullet> With USAID funding, these 30 countries have fortified more 
        than 10 kinds of food, determined by food consumption patterns 
        in each country (for example, fish sauce in Vietnam and 
        cottonseed oil in Burkina Faso), with 6 different fortificants 
        (iron, folic acid, B vitamins, vitamin A, zinc, iodine).
  <bullet> In the 1970s, all Central American countries suffered from 
        high levels of vitamin A deficiency. With USAID assistance over 
        the past three decades, El Salvador, Guatemala, Honduras, and 
        Nicaragua all developed sustainable sugar fortification 
        programs. Today, vitamin A deficiency is virtually nonexistent 
        in these four countries.
  <bullet> Since 1997, Zambia has fortified maize meal and sugar with 
        vitamin A with USAID assistance. In a series of surveys, the 
        prevalence of vitamin A deficiency in children decreased from 
        65.7 percent in 1997 to 54.1 percent in 2003.

    And fortification is cost-effective. Every $1 spent on vitamin A 
fortification returns $7 in increased wages and decreased disability. A 
dollar spent on iodized salt returns $28; iron fortification, $84.

  3. EXPANDING EXCLUSIVE BREASTFEEDING AND APPROPRIATE INFANT FEEDING

    More than two-thirds of malnutrition-related infant and child 
deaths are associated with a failure to grow in children under 5 years 
of age. Within this time period, the sharpest increase in malnutrition 
occurs between 6 and 24 months of age, the time when children grow most 
rapidly. This situation is made worse by the fact that less than a 
third of infants in most countries are exclusively breastfed during the 
first 6 months of life. In addition, early cessation of breastfeeding 
and the introduction of nutritionally inadequate complementary foods is 
a common occurrence. This compounds the danger for infants who are at 
highest risk of mortality because of their exposure to disease and 
limited access to health services.
    Mothers and babies form an inseparable biological and social unit. 
The health and nutrition of one group cannot be divorced from the 
health and nutrition of the other. A well-nourished mother gives birth 
to a healthy baby with sufficient nutrient stores to grow and develop. 
To continue the child's well-being, the mother needs to have her 
nutritional needs satisfied so that she can produce high nutritional 
quality breast milk and actively take part in the care of her child. A 
sick or malnourished woman is in danger of succumbing to illness and to 
being unable to accomplish all the tasks of childbirth and child 
rearing. USAID programs recognize the importance of women's nutrition 
both to themselves, their children, and families and include them in 
programs.
    USAID also supports efforts to identify and support safer infant 
feeding strategies in communities affected by HIV. Optimal infant 
feeding is a key component of prevention of mother to child 
transmission (PMTCT), as well as a critical intervention to ensure 
overall child survival.
    USAID supports programs to counsel all mothers about the risks of 
mother to child transmission and the need to know their HIV status. 
USAID's new Infant and Young Child Feeding (IYCF) program will develop 
innovative interventions that build on 1) proven positive impact, 2) 
effective behavior change and communication to target populations, and 
3) improve household food quality through small- and large-scale 
fortification.
    Ensuring optimal nutrition involves various interventions 
coordinated at key points in the healthcare setting and community. 
USAID has developed the universally recognized and adopted Essential 
Nutrition Actions (ENAs) consisting of proven, high impact, feasible 
program interventions which, implemented at the community level, have a 
significant impact on nutritional status and child survival. The Ending 
Child Hunger and Undernutrition Initiative recognizes the importance of 
these ``essential packages.'' These include:

  <bullet> Exclusive breastfeeding up to 6 months;
  <bullet> Appropriate infant and young child feeding through 23 
        months;
  <bullet> Optimal nutritional care of sick children;
  <bullet> Prevention of vitamin A deficiency;
  <bullet> Prevention of anemia;
  <bullet> Prevention of iodine deficiency; and
  <bullet> Optimal nutrition for women.

    P.L. 480, Title II food assistance programs and community-based 
maternal and child health and nutrition activities implemented by 
USAID's child survival and health grants recipients are especially 
effective ways to increase the impact of these life-saving 
interventions. For example, between 40 and 50 percent of Title II 
nonemergency resources support multiyear community-based maternal and 
child health and nutrition programs that distribute food, much of it 
micronutrient fortified, and monetize to fund the implementation of 
proven interventions to improve child survival and nutrition. These 
include promotion of exclusive breastfeeding and appropriate 
complementary feeding, prevention and treatment of preventable 
childhood diseases, including diarrhea, increased micronutrient 
consumption, and improvements in antenatal care. Title II MCHN programs 
also create linkages between health and nutrition activities and Title 
II-funded activities in the agriculture sector so that improvements in 
agricultural productivity and income translate into better nutrition 
for households, mothers, and children.
    USAID has been at the forefront of efforts to increase the focus on 
and coverage of children in the 6-23 month age group, and to take a 
preventative rather than curative approach to undernutrition. Title II 
food-assisted development programs are encouraged to provide universal 
coverage of all children under 2 rather than focusing only on those who 
are currently malnourished. Recent USAID-funded research in Haiti, led 
by the International Food Policy Research Institute, found that this 
kind of food-assisted preventative program achieved significantly 
greater impacts on child malnutrition--stunting and underweight--than 
recuperative programs do.
    In addition to food aid resources from USAID's Food for Peace 
program, USDA administers the McGovern-Dole International Food for 
Education (FFE) and Child Nutrition Program. The key objectives of the 
FFE program are to reduce hunger and improve literacy and primary 
education, especially for girls. By providing school meals, teacher 
training, and related support, FFE projects help boost school 
enrollment and academic performance. The FFE program also provides 
nutrition programs for pregnant women, nursing mothers, infants, and 
preschool youngsters, to sustain and improve the health and learning 
capacity of children before they enter school.
    In fiscal 2005, the FFE program made approximately $91 million 
available to provide 118,000 tons of food to 3.4 million children in 15 
developing countries in Africa, Asia, Latin America, and Eastern 
Europe.

                      4. NUTRITION IN EMERGENCIES

    Children in emergency and conflict situations are especially 
vulnerable to hunger. USAID supports activities for the nutritional 
rehabilitation of malnourished children in these situations. A new 
program direction, pioneered by USAID, Community Therapeutic Care (CTC) 
in Malawi and Ethiopia, has shown greater impact in rehabilitation than 
traditional Therapeutic Feeding Centers in emergency situations.
    CTC is a community-based approach of care for managing large 
numbers of severely malnourished children and adults at home, using 
outreach teams to promote community participation and behavioral 
change. CTC aims to build community capacity to manage and to better 
respond to repeated cycles of relief and recovery. Providing 
appropriate Ready-to-Use-Therapeutic Food (RUTF) like ``Plumpynut,'' 
which is similar to F-100 Therapeutic Milk, is central to the home-
based care of the severely malnourished.
    USAID is focused on establishing international guidelines on the 
use of CTC and ensuring their adoption through training, monitoring, 
and evaluation across implementing agencies. Current programs are 
exploring the possibilities for local production of RUTF in 
formulations appropriate to the population. Manufacturers of Plumpynut 
are enthusiastic partners with USAID in devising ways to transfer the 
technology involved in the preparation of rehabilitation foods.

                 5. SANITATION, HYGIENE, AND NUTRITION

    Extensive research has established the important link between 
diarrhea, intestinal parasites, and poor nutritional status of children 
under 5. To reduce nutrition losses (macro- and micronutrients) and 
maximize the impact of nutrition interventions, the incidence of 
diarrhea and intestinal parasites needs to be reduced through hygiene 
improvement.
    Hygiene improvement focuses on the behaviors that are the key 
determinants of diarrhea risk, especially drinking safe water, sanitary 
disposal of feces, and washing hands with good technique at appropriate 
times. Each of these practices typically results in a 30-40 percent 
reduction in diarrhea prevalence. Solid evidence indicates that 
improvements in sanitation alone or in sanitation and water supply 
together are associated with significant increases in children's 
nutritional status. Data from eight countries showed sanitation 
improvements were associated with a reduction in height deficit, 
relative to the reference standard, ranging from 22 percent and 53 
percent for urban children and from 4 percent to 37 percent for rural 
children.

                               CONCLUSION

    USAID supports the objectives of the Ending Child Hunger and 
Undernutrition Initiative (ECHUI). The face of child hunger is too 
stark and the needs are too great. Forging a strong alliance of 
collaborators from among national governments, international agencies, 
the private sector, and other sectors of civil society has been an 
important part of the way USAID nutrition programs have worked in the 
past and will continue to work in the future.
    The five nutrition areas I have described today: 1) Reducing 
micronutrient deficiencies; 2) food fortification; 3) expanding 
exclusive breastfeeding and appropriate infant feeding; 4) nutrition in 
emergencies; and 5) sanitation, hygiene, and nutrition, all are 
stronger because of the partnerships they bring to the table. And 
partnerships will be important for the challenges these areas will meet 
in the future.
    Vitamin A supplementation programs have significantly increased 
coverage rates since they were appended to NIDS. The winding down of 
NIDS programs presents a challenge in terms of sustainability of 
vitamin A supplementation coverage, and new partners and platforms will 
need to be identified.
    Since most children in poor countries suffer from more than a 
single nutrient deficiency, the ability for nutrition programs to 
deliver multiple nutrients at the limited points of contact is an 
imperative. USAID, together with partners, is researching the optimal 
combination of vitamins and minerals for women of reproductive age and 
children.
    Supplementation and nutritional rehabilitation programs are only a 
short-term answer to chronic malnutrition. USAID will increase its 
efforts to work with other agencies and host country counterparts to 
improve the food and nutrition policy, strategy, and program 
development in assisted countries in order to improve equity and 
improved health benefits.
    Despite considerable progress in iodizing salt and preventing IDD, 
large differences exist in the consumption of adequate iodized salt 
among regions of the
developing world. In 33 countries, less than half of households consume 
adequately iodized salt, and 37 million newborns in the developing 
world are born every year unprotected from iodine deficiency and its 
lifelong consequences. Progress in ensuring universal salt iodization 
needs to be accelerated.
    Finally, food fortification presents a cost-effective, sustainable 
alternative that shares the cost with some very important partners--
consumers and the private sector.
    USAID has been combating child hunger for a long time. We will 
continue to do so, in step with our existing partners, and welcoming 
our new partners and initiatives. The millions of children who die, 
before they reach the age of 5, of hunger-related causes, and the 
hundreds of millions of undernourished children who will bear the 
damage from hunger and malnutrition for the rest of their lives deserve 
nothing less.
    Thank you.

    The Chairman. Thank you very much, Mr. Kunder.
    Dr. Gerberding.

   STATEMENT OF DR. JULIE GERBERDING, DIRECTOR, CENTERS FOR 
         DISEASE CONTROL AND PREVENTION, WASHINGTON, DC

    Dr. Gerberding. Good morning, Mr. Chairman. It's really a 
pleasure to be here on this important topic.
    I don't think, in all of the hearings that I've appeared 
in, in front of Congress, that I've ever been at one that's 
more important, and I don't think I've ever read testimony 
that's been more filled with the kind of humanitarian work that 
we really can accomplish around the world. I just wish we could 
do more of it.
    I'm going to start by just reminding all of us of some of 
the facts that have motivated our presence here today. In the 
next 24 hours around the world, 1,200 children will die of 
measles, 1,600 children will die from diarrhea caused by 
rotavirus, about 3,500 people will die of malaria, 5,400 from 
TB, and 8,200 from AIDS, and almost all of these people will 
disproportionately be children. What's tragic about that is not 
just the lives of these young people being lost, but these 
lives represent preventable deaths, they represent infectious 
diseases, and they represent, really, the ultimate vicious 
cycle of poverty, lack of safe water, poor nutrition, 
preventable infectious diseases, and death. And that circle is 
spiraling, as we speak, in many corners of the world.
    What's remarkable is that we are doing so much, and we can 
do more about it. I asked today to present to you the 
perspective of the CDC, but I wanted to make very clear that we 
don't do anything by ourselves; we work in solid partnership 
with many of the organizations here at the table and many of 
the people around the world.
    Our global role is not one that's very familiar to many 
people. First and foremost, we do have the job of health 
protection internationally, and that's something that some 
people are familiar with because of pandemic planning and SARS, 
and we do have a very important role to play in protecting 
people at home and abroad from those emerging infectious-
disease threats. But we also do have a very important role in 
promoting health around the world. Much of what we're talking 
about today falls into that category.
    But I agree with my colleague that perhaps the most 
important role that we play is the role of health diplomacy. 
When we roll up our sleeves as scientists, and take our science 
to the streets in the farthest corner of the world, we are 
putting a best-possible face on America. And that is something 
that, I think, all of us feel in our hearts, as organizations, 
it's a value that we exemplify, and we want to do our part to 
make sure that people around the world value and respect and 
appreciate what our democracy and what our citizens are really 
willing to do to help make the world better for everyone.
    I'd like to just spend a brief minute or two talking about 
some of the specifics of the programs that we've accomplished, 
and also acknowledging the tremendous reliance that we have on 
not just our domestic partnerships, but our international 
partnerships, as we succeed. So, I'm not going to mention each 
other organization. I just want you to be aware of some of the 
activities that are making the biggest difference.
    Let me start with this group of people here in the 
photograph. This is a CDC scientist who's in the streets of 
Afghanistan, in Kabul, and he is responsible for a program 
that's part of something called IMMPaCt, or the International 
Micronutrient Malnutrition Prevention and Control Program. This 
is a set of programs that we conduct with our partners that 
really help, first of all, survey the problem of 
undernutrition, and, second, design very targeted programs to 
solve problems. In Afghanistan, there was a particular problem 
of lack of iodine in the food supply and the diseases of 
thyroid and other conditions that go along with that. So, 
through an iodine fortification program, we've been able to 
measure that in Kabul there now is a restoration of iodine 
levels, and that the program has really contributed to better 
nutrition in that community.
    We're working, in Kenya, in Tajikistan, for door-to-door 
food distribution. You know, in countries that have problems 
with HIV infection, mothers are told not to breastfeed their 
babies if they're HIV-positive, because that's a way of 
transmitting the virus to the baby after birth; even if they've 
taken antivirals during birth, they can still transmit, after 
birth, if they're breastfeeding. But that mom is in a very 
difficult situation, because often she does not have clean 
water, and so, she doesn't have the materials she needs to make 
safe baby formula or baby food. So, either her choice is: Risk 
passing the virus via breastfeeding or risk exposing her child 
to deadly diarrheal diseases, which have an equal, if not 
greater, short-term fatality rate. So, we are working in these 
countries to improve the distribution of commercially available 
infant formula, but also our safe water system, which is a very 
inexpensive intervention to try to bring safe water into 
people's homes through water vessels that either contain 
materials that help precipitate out the impurities or chlorine 
bleach to help keep the water clean.
    Ambassador Tobias, from the--when he was with the 
President's program for AIDS, the PEPFAR program--and I, 
visited a hut in the remote area of Uganda, and we asked the 
gentleman in the hut, ``What do you think about this program to 
deliver you antiviral drugs?'' And he said, ``Oh, I feel great. 
I'm getting much better.'' And we said, ``Well, when did you 
start to feel better?'' And he said, ``Well, first they brought 
me a clean water vessel, and they brought antibiotics to treat 
my diarrhea, and not only did my diarrhea get better, but all 
of my children's diarrhea got better, and, the first time, they 
started gaining weight, and we could really see that the 
nutrition in our household improved.'' That antibiotic, 
incidentally, also helped with the malaria that he was 
harboring, and, between that and the bed net, he and his family 
have much lower risk of developing malaria, which is the 
complicating factor of HIV in many of these communities. Then 
the patient got treated for his tuberculosis, which was 
contributing to his malnutrition, and the children were also 
screened and treated. Finally, after all of that, he got 
started on antiretroviral therapy for his HIV infection.
    So, through a series of very inexpensive interventions, we 
set the stage so that the treatment for the HIV that we were 
delivering had a chance of being successful. You cannot treat 
HIV in adults and children if they're undernourished. And that, 
I think, is a very important component of all the work we're 
doing. It's that story about how problems come together to 
affect people.
    But solutions can also come together, and I'm very pleased 
to tell you--I think there's a picture on the next graphic--of 
a situation where we have a child who was suffering from very 
profound undernutrition, a starving child, and then, through a 
series of interventions that are reflected here in the table 
among our partnerships, this child was able to enjoy not only 
food replenishment, but replenishment with the hidden nutrients 
that often go unnoticed--vitamin A, folate, iron, minerals, 
things that without fortification of the food supply--it 
doesn't matter how many calories you put in a child, they're 
not going to be well nourished, because they don't have the 
trace minerals to have those nutrients do some good.
    Another example of bundling occurs in the context of 
malaria--excuse me--in the context of measles. Measles is a 
very important focus of CDC's work and partnership 
internationally, and over the last few years, because of the 
programs in Africa, we've been able to cut in half the number 
of children dying from measles. So, the good news is a 50 
percent reduction, the bad news is there are still more than 
450,000 deaths caused by measles every year. But our program 
now is bundling not only the measles vaccine, but an 
inexpensive bed net; a worm pill, which is another reason for 
anemia and undernutrition around the world with the neglected 
tropical diseases; vitamin A shots, so that the measles vaccine 
will work and the child will have less risk from many other 
infectious diseases; and sometimes a hug so that that child 
knows that somewhere some people in the world really care about 
their growth and their opportunity to become adults and 
contribute to the development of their country.
    The last thing I wanted to mention is more sobering, even, 
than these issues related to overt malnutrition, undernutrition 
in hidden hunger. That relates to the complex role that we all 
play in areas like Sudan, where there are very complicated 
humanitarian situations. CDC, in conjunction with the United 
Nations programs there, is called upon to do the nutritional 
surveys. And I recall a day not too long ago at CDC when a team 
of CDC scientists were heading to Sudan to do the kind of 
nutritional survey in an environment where their security was 
under threat, and the amount of preparation they needed in 
terms of their own personal protection, and the amount of 
preparation needed in terms of their situation there, was very 
sobering to me, personally. And I wasn't sure that it was right 
for people to go and put their lives on the line in this way. 
But when I learned about the problem, and I learned about the 
value of this, I realized that it was part of our job to step 
up to the plate and do this. And we thank our partners for 
doing everything they do to assure our security when we're in 
these regions.
    But the mission was to go into that area and to determine, 
of all the people there who were hungry and undernourished, 
which were the people that weren't so far gone that a food 
supplement could save their lives. So, we were going in to help 
determine where to target the food resources that we had so 
that they would do the most good. And, of course, what that 
means is that some people are so hungry that even refeeding is 
too late.
    So, I think we feel very passionate about our international 
work in this regard, and we appreciate so much your attention 
and the attention of this committee in allowing us to display 
for more people the importance of the work, but also the 
successes that we've had.
    Thank you.
    [The prepared statement of Dr. Gerberding follows:]

   Prepared Statement of Dr. Julie Gerberding, Director, Centers for 
             Disease Control and Prevention, Washington, DC

    Good morning, Mr. Chairman and members of the committee. I am 
pleased to be here today to discuss the work of the Centers for Disease 
Control and Prevention (CDC) in combating child hunger and malnutrition 
in developing countries and our collaborations with other U.S. 
agencies, multilateral and bilateral health organizations, and private 
partners.
    Since its inception, CDC has been active in applying its technical 
skills to global health priorities of the United States, from the 
pivotal role the agency played in the campaign to eradicate smallpox, 
to CDC's current global portfolio, which includes science-based 
activities throughout the world. CDC has initiatives to directly 
address nutritional status of children through its micronutrient 
malnutrition program, safe water and humanitarian response activities, 
and infectious disease activities that impact nutritional status. CDC 
also plays a lead role in global disease detection and pandemic 
influenza preparedness efforts.
    CDC has strengthened its commitment to global health by recently 
establishing Health Protection Goals specifically focused on helping 
people around the world live healthier, safer, and longer lives through 
global health promotion, health protection, and health diplomacy. In 
particular, through our health diplomacy activities we work to engender 
trust, maintain high ethical standards, and engage the community; 
strengthen the public health workforce and leadership both within CDC 
and around the world; and meet country needs through our humanitarian 
responses to national disasters and efforts to address ``core'' public 
health issues--including improved availability and access to safe water 
and adequate food and nutrition, the focus of my testimony today.

   STATISTICS ON NUTRITIONAL CONTRIBUTORS TO CHILD DEATHS AND ILLNESS

    The nutritional and infectious disease contributors to child deaths 
and illness are well-documented.

  <bullet> Each year, undernutrition contributes to the deaths of about 
        5.6 million children younger than 5 in the developing world, 
        according to UNICEF. Another 146 million children younger than 
        in 5 are underweight and at increased risk of early death, 
        illness, disability, and underachievement (UNICEF, 2006).
  <bullet> UNICEF reports that in the least developed countries, 42 
        percent of children are stunted and 36 percent are underweight.
  <bullet> A vitamin A deficient child faces a 23 percent greater risk 
        of dying from ailments such as respiratory illnesses, diarrhea, 
        and malaria.
  <bullet> Lack of sufficient folic acid intake among women of 
        childbearing age contributes to an estimated 200,000 babies 
        born with crippling birth defects throughout the world.
  <bullet> Iron deficiency, one of the top 10 causes of global disease 
        burden (World Bank), contributes to about 60,000 deaths among 
        women in pregnancy and childbirth, and robs 40 percent to 60 
        percent of the developing world's children of their 
        intellectual development (UNICEF/MI).

    Effective and inexpensive interventions such as food fortification, 
supplementation, and dietary improvements have eliminated most 
micronutrient malnutrition in developed countries and could result in 
similar public health improvements in developing countries. CDC, in 
partnership with other global public health leaders, is putting into 
practice these interventions.

            CDC INTERVENTIONS TO IMPROVE NUTRITIONAL STATUS

International Micronutrient Malnutrition Prevention and Control Program 
        (IMMPaCt)
    In 2000, CDC established the IMMPaCt Program to support the global 
effort to eliminate vitamin and mineral deficiencies, or hidden hunger. 
Through the IMMPaCt program, CDC provides funding and/or technical 
assistance directly to countries through cooperative and interagency 
agreements with UNICEF, the World Health Organization (WHO), the U.S. 
Agency of International Development (USAID), the Global Alliance for 
Improved Nutrition (GAIN), and the Micronutrient Initiative (MI). With 
these partners, CDC has assisted countries in assessing the burden of 
hidden hunger through national surveys and surveillance systems that 
allow countries to monitor the coverage and impact of their food 
fortification and micronutrient supplementation programs. In addition, 
computer and Web-based training tools and regional and national 
training workshops developed by CDC have strengthened the capacity of 
countries to assess the burden of malnutrition, track the effectiveness 
of interventions strategies through surveillance systems, and plan 
social marketing and health communication strategies to promote the 
consumption of vitamin- and mineral-fortified foods.
    In 2002, in collaboration with the WHO Eastern Mediterranean 
Regional Office (EMRO), CDC provided funding support and consultation 
toward a national micronutrient survey to generate baseline data on 
iron status of adult women and preschool children in order to monitor 
the impact of the recently initiated national flour fortification 
program in Jordan.
    CDC also worked with the Ministry of Health (MOH) and UNICEF-
Afghanistan on establishing salt iodization activities, including 
building several iodized salt-producing plants. In 2004, CDC 
subsequently helped the MOH and UNICEF-Afghanistan to plan and 
implement the first national nutrition survey which provided estimates 
of nutritional deficiency among children, women, and men in 
Afghanistan, and showed that iodine status of the Kabul population is 
already substantially better since an iodized salt production factory 
started operating in 2003.
    Through its International Micronutrient Reference Laboratory, CDC 
has collaborated with global partners to establish and support a global 
network of resource laboratories around the world to help improve and 
monitor the quality of national micronutrient testing.

    IMMPACT MULTISECTORAL PARTNERSHIPS TO SUPPORT IMPROVED NUTRITION

Fortification of flour and food with vitamins and minerals
    To help improve nutrition worldwide, the CDC IMMPaCt Program helped 
launch the Flour Fortification Initiative (FFI) in 2002. The Initiative 
was formalized in 2005. The FFI Leaders Group, a network of government 
and international agencies, wheat and flour industries, academia, and 
consumer and civic organizations, was established to promote flour 
fortification. FFI supports fortification of flour with essential 
vitamins and minerals, especially folic acid and iron, as one important 
way to help improve the nutritional status of populations, especially 
women and children, around the world.
    To more directly improve dietary vitamin and mineral intakes of 
infants and young children, CDC recently implemented a cooperative 
agreement with UNICEF CEE/CIS to begin a multisectoral initiative to 
mobilize and engage the food industries, as well as the governments and 
public health sectors in countries of Eastern Europe and Central Asia, 
to strengthen breastfeeding promotion programs and to fortify all 
commercially produced complementary food (foods added to a child's diet 
during transition from breast milk) for infants older than 6 months of 
age. Experience in the United States and Canada suggests that the 
impact of such a partnership between the public sector and food 
industry in that region of the world is likely to be enormous.
    In many Asian and African countries, commercially produced infant 
foods are either not commonly used or readily accessible through 
markets in remote areas. Through the IMMPaCt program, CDC is actively 
planning pilot interventions in Kenya and Tajikistan to assess the 
feasibility of alternative approaches to sustainable distribution, 
through small local markets and house-to-house sales, of easy-to-use, 
``in-home'' fortificants to enrich baby foods. These efforts will 
require public-private-civic sector partnerships to be nurtured and 
strengthened over time.

  CDC INFECTIOUS DISEASE INTERVENTIONS THAT IMPACT NUTRITIONAL STATUS

Global immunization
    Over recent decades, the experience of national immunization 
programs demonstrates that immunization is one of the ``best buys'' in 
public health. Rapid implementation and use of the traditional vaccines 
against childhood killer diseases has been the single most important 
contributor to the reduction of child mortality in developing 
countries.
    Prevention of vaccine preventable diseases (VPDs) has the potential 
to positively impact malnutrition. Pertussis infection (whooping cough) 
is associated with coughing followed by vomiting that can last several 
months. This has been shown to result in poor growth and lower than 
normal weight for age, along with the potential to result in 
malnutrition.
    Several studies suggest that children vaccinated against measles 
may have improved nutritional status compared with unvaccinated 
children. Fewer deaths due to diarrhea and malnutrition have also been 
reported in children vaccinated against measles. Infections, including 
those preventable by immunization, have been shown to lower the body's 
immune defenses leading to more infections, lowered nutritional intake, 
and eventual malnutrition. For example, measles infections are 
associated with lowered levels of vitamin A, which increases 
susceptibility to diarrhea and pneumonia. These infections result in 
poor appetite, lowered food intake, and the potential for malnutrition. 
Studies from one African country demonstrated a decrease in the number 
of malnutrition cases that was temporally related to a mass measles 
vaccination campaign that improved control of measles.
    In collaboration with WHO, UNICEF, and other agencies, CDC's Global 
Immunization Division has been involved in international activities to 
improve immunization coverage rates for all vaccine preventable 
diseases. Global routine measles coverage increased from 71 percent in 
1999 to 76 percent in 2004.
    Overall, global measles-related deaths decreased 48 percent from 
1999 to 2004, i.e., from 871,000 people to 454,000. CDC is also a 
founding member of the Measles Partnership, which from 2001 to 2005 
supported 40 African countries in conducting mass measles vaccination 
campaigns. An estimated 213 million African children were vaccinated, 
averting 1.2 million measles-related deaths. The Partnership is also 
supporting measles vaccination in WHO's Eastern Mediterranean and 
Southeast Asia region, where 60 million children are to be vaccinated 
in 2006. These activities have the potential to impact on malnutrition 
by greatly reducing the risk of developing measles infection.
    In addition to providing measles vaccine during Partnership-
supported campaigns, vitamin A, antihelminthic (deworming) medication, 
and bed nets (to prevent malaria infection) were also distributed 
together in a number of countries. These integrated or ``bundled'' 
interventions are more efficient and effective. From 2001 to 2005, more 
than 43 million children received doses of vitamin A, more than 13 
million received deworming medication, and 1.5 million received 
insecticide-treated bed nets to prevent malaria. Plans in WHO's AFRO 
region for 2006 include vaccinating 64 million children and providing 
10 million children with deworming medication, 20 million with vitamin 
A, and 5 million with antimalarial bed nets. Integrated delivery of 
child survival interventions are also planned in countries in other 
regions as well, including Indonesia.

                     INTESTINAL HELMINTHES (WORMS)

    More than 2 billion children globally are infected by intestinal 
helminthes, with 155,000 deaths reported annually. The burden of 
diseases caused by intestinal helminthes infection (39 million 
disability associated life years (DALYs) is higher than that caused by 
measles (34 million DALYs) or malaria (36 million DALYs). Intestinal 
helminthes infection affects the nutritional status of children through 
intestinal bleeding, malabsorption, competition for nutrients, loss of 
appetite, and diarrhea. All of these effects are reversible after 
treatment. Another benefit of treatment is better digestion of the 
sometimes limited food available.
    Drugs for deworming treatment are highly effective, widely 
available, inexpensive, easy to administer during school or general 
population drug campaigns, and without serious side effects. One caveat 
is that treatment must be repeated every 6-12 months because of 
reinfection. CDC has provided technical support to programs addressing 
neglected tropical diseases (NTD), such as intestinal helminthes, in 
more than 10 countries. NTD programs provide significant public health 
value at low cost, less than $1 per person per year and represent 
excellent examples of public-private partnerships through the generous 
donations of drugs by Merck, Glaxo-Smith-Kline, Pfizer, and Johnson & 
Johnson.
Safe water
    In settings with poor access to safe water and hygiene, children 
can become trapped in a vicious cycle of diarrheal illness and 
malnutrition. Diarrheal infections kill nearly 2 million children less 
than 5 years of age annually and can cause substantial short- and long-
term morbidity among survivors. Children with diarrhea frequently lose 
their appetites and can't absorb food, which can lead to nutritional 
deficiencies. Similarly, malnourished children are also at higher risk 
for diarrheal diseases. Poor weight and height gains have been reported 
among children with heavy diarrheal burdens early in life.
    Where drinking water and hygiene practices are unsafe, improving 
child nutrition may not be as simple as providing food aid. 
Additionally, foods prepared with unsafe water or contaminated hands 
may expose children to diarrheal pathogens, causing additional illness 
and further compromising child nutrition.
    This problem was highlighted during an early 2006 diarrhea outbreak 
in Botswana--investigated by CDC and partners, including the Ministry 
of Health, U.S. Office of Foreign Disaster Assistance (OFDA), Peace 
Corps, UNICEF, and Doctors Without Borders--that killed more than 530 
children. HIV-infected mothers in Botswana are provided free infant 
formula during their children's first year of life in an effort to 
prevent mother-to-child transmission of HIV, but water used to prepare 
the formula is not always safe to drink. In this outbreak, diarrhea and 
acute malnutrition were more common among children who were not 
breastfed. The lesson learned is that food aid is likely to be most 
effective when combined with additional interventions, such as safe 
water.
    The Safe Water System (SWS) consists of water treatment with 
dilute, locally produced sodium hypochlorite solution, safe water 
storage, and behavior change techniques. The solution is typically 
marketed through commercial channels at an affordable price and is 
promoted locally by project partners. Through partnerships with dozens 
of public, private, and nongovernmental organization (NGO) partners, 
the SWS has been implemented in 23 countries. Approximately 3 million 
persons per month benefit from the program.
    In Kenya, a partnership including CDC, USAID, WHO, Rotary 
International, Population Services International, CARE, Emory 
University, the Millennium Water Alliance, the Ministry of Health, the 
Ministry of Education, and several private companies, is promoting and 
distributing SWS products through the private sector, women's groups, 
primary schools, clinics, hospitals, and religious organizations. In 
Kenya, Uganda, and Nigeria, SWS products and handwashing supplies are 
distributed to HIV-infected people to help prevent opportunistic 
infections, improve their nutritional status, and protect the health of 
other vulnerable family members. In Afghanistan, hygiene kits, 
including SWS products and soap, are provided free to pregnant mothers 
as an incentive to attend antenatal clinics and to help them develop 
good hygienic habits before the birth of their children.
    CDC has also collaborated with Procter & Gamble (P&G) Company to 
develop and field test PuR, a water treatment product that clarifies 
and disinfects water. PuR has been used in internally displaced 
populations in Ethiopia to prevent illness and improve nutritional 
status. CDC is also currently conducting a clinical trial of a new 
water treatment product produced by Occidental Chemicals in 
collaboration with Medentech, Inc. CDC has collaborated with P&G on 
handwashing research, including a recent study in China that documented 
a decrease in primary school absenteeism in children in a handwashing 
promotion program. CDC is also part of the Public Private Partnership 
for Handwashing that is coordinated by the World Bank.
    Safe water also contributes to preventing Guinea worm disease 
(GWD), a parasitic disease that affects resource-poor communities in 
remote parts of Africa that lack safe drinking water. Infection is 
painful and debilitating, with serious negative economic and social 
consequences, such as loss of agricultural production and reduced 
school attendance. GWD is targeted for eradication, and since the mid-
1980s the incidence of the disease has declined from more than 3 
million cases per year to less than 12,000 in 2005. Transmission has 
been stopped in 11 of 20 countries. CDC collaborates with many partners 
in the global GWD eradication efforts, including the Global 2000 
program of the Carter Center, UNICEF, and WHO. Eradication efforts 
include simple interventions and CDC has been instrumental in 
demonstrating that cloth filters and pipe filters can protect users 
from GW-contaminated drinking water, identifying barriers to early case 
identification and containment, and assessing the effectiveness of 
health education and messages to inform villagers about GWD. CDC plans 
to continue to assist ministries of health and other partners with 
monitoring and evaluation activities, provide technical assistance 
concerning surveillance, case detection and containment, and to work 
with WHO and the Carter Center to reduce cases in the two remaining 
most highly endemic countries of Ghana and Sudan to fully eradicate 
this disease.

           IMPACT OF MALARIA INTERVENTION ON CHILD NUTRITION

    CDC also contributes to improved child nutrition through its 
malaria prevention and control program. It is generally accepted that 
poor nutrition may lead to increased susceptibility to infectious 
diseases such as malaria along with immune and metabolic system 
dysfunction that can then further impair nutritional status. Study 
findings include these: 1) Over time, infections such as malaria may 
impair growth in young children; 2) Anemia is a common result of both 
nutritional deficiency and malaria and in areas of intense malaria 
transmission, where children experience repeated and chronic malaria 
infection, this nutritional/malarial anemia is likely to resemble iron 
deficiency anemia and may require iron therapy along with antimalarial 
treatment; 3) Persistent malaria may induce iron deficiency through one 
or more mechanisms, including decreased iron absorption, enhanced iron 
loss during an acute malarial episode, or making iron unavailable in 
the body for red blood cell production; 4) Malaria-associated low birth 
weight is a risk factor for increased neonatal and infant mortality; 
and 5) Prevention of malaria and associated anemia through control 
strategies such as insecticide-treated nets (ITNs) may help to improve 
infant growth and weight gain.
    CDC is actively involved in malaria research that may impact on 
overall nutritional status of children. For example, CDC has measured 
the impact of specific treatments and assessed the optimal frequency of 
iron supplementation to address the anemia associated with malaria. In 
other work, CDC has documented the beneficial positive impact of 
insecticide-treated nets (ITNs) on anemia and growth in
infants; assessed the impact of ITNs on growth, nutritional status, and 
body composition of primary school children; and is conducting an 
ongoing study of IPT with different antimalarial regimens plus iron 
supplementation in infancy to assess impact on malaria, anemia, and 
growth. In addition, the synergy and heightened health benefit of 
deworming and malaria interventions such as bed nets helps address the 
combined anemia caused by malaria and intestinal worms (especially 
hookworm).
President's Malaria Initiative activities
    CDC is working to control malaria and its deleterious effects on 
child survival, morbidity, and nutritional status through participation 
in the President's Malaria Initiative (PMI), an intergovernmental 
initiative led by USAID, as well as HHS/CDC, HHS/National Institutes of 
Health (NIH), the U.S. Department of State, the U.S. Department of 
Defense, and the White House. When PMI was launched in the summer of 
2005, President Bush pledged to increase funding of malaria prevention 
and treatment in sub-Saharan Africa by more than $1.2 billion over 5 
years.
    The goal of the President's Malaria Initiative is to reduce malaria 
deaths by half in each target country after 3 years of full 
implementation. The initiative helps national governments deliver 
proven, effective interventions--insecticide-treated bednets (ITNs), 
indoor residual spraying, prompt and effective treatment with 
artemisinin-based combination therapies (ACTs), and intermittent 
preventive treatment for pregnant women--to a majority (85 percent of 
people at greatest risk--pregnant women and children less than 5 years 
old).
    Work is ongoing in Angola, Tanzania, and Uganda. In 2007, PMI will 
target four additional African countries: Malawi, Mozambique, Rwanda, 
and Senegal. In 2008, eight more countries will be added. The 
initiative will eventually be implemented in 15 African countries most 
affected by malaria.
HIV/AIDS
    HIV/AIDS and malnutrition are both highly prevalent in many parts 
of the world, especially in sub-Saharan Africa. There are well-
established links between HIV/AIDS and poor nutrition and food 
insecurity. HIV, which causes weight loss and wasting, specifically 
affects nutritional status by increasing energy requirements, reducing 
food intake, and adversely affecting nutrient absorption and 
metabolism.
    PEPFAR recognizes that nutrition is important for people living 
with HIV/AIDS (including pregnant women) and HIV-exposed children. 
Within PEPFAR, CDC is helping to support efforts to provide appropriate 
nutritional support and to create links with broader nutrition 
programs.
    Infants born to HIV-positive mothers (``HIV-exposed children'' 
including both infected and uninfected children) are at a substantially 
higher risk of low birth weight, early malnutrition, and mortality in 
the first 2 years of life than children born to mothers without HIV. 
The risks are greatest for infants of mothers with more advanced 
disease (Kuhn et al., 2005). These HIV-exposed infants are the major 
focus of the prevention of mother-to-child HIV transmission (PMTCT) and 
orphans and other vulnerable children (OVC) programs. Successful 
outcomes for these children depend on early detection, strong 
counseling, antiretroviral (ARV) provision, safe infant feeding and 
follow-up and support system for the infant/mother pairs. Growth, 
nutritional status and survival of HIV-infected children are also 
improved by prophylactic cotrimoxazole, ARV therapy, and prevention and 
treatment of opportunistic infections, while improved dietary intake 
improves weight gain, growth, and recovery from opportunistic 
infections and decreases risk of mortality. PMTCT programs target both 
the HIV-positive pregnant women (and mothers) and their infants and 
young children with these interventions.
    The prevention of mother-to-child HIV transmission programs 
encourage and support safe infant feeding. In settings where 
breastfeeding is common and prolonged, transmission through breast milk 
may account for up to half of the HIV infections in infants and young 
children. The overall risk of mother-to-child HIV transmission (MTCT) 
in nonbreastfeeding populations is 15-25 percent (without interventions 
to reduce transmission) and in breastfeeding populations 20-45 percent. 
To reduce the risk of HIV transmission, HIV-positive mothers are 
advised to avoid breastfeeding and use replacement feeding when it is 
acceptable, feasible, affordable, sustainable, and safe to do so. 
Otherwise, exclusive breastfeeding for the first months of life is 
recommended, followed by early breastfeeding cessation when conditions 
for safe replacement feeding can be met. Available ARV prophylaxis 
interventions can substantially reduce MTCT during pregnancy, labor, 
and delivery but, so far, significant reduction of postnatal mother-to-
child HIV transmission has been less successful.
    Safe infant feeding is still a major challenge. In resource-limited 
settings, where large numbers of HIV-infected women and their infants 
benefit from PMTCT programs, safe feeding of infants without breast 
milk is difficult. Many women have inadequate access to clean water, 
infant formula, and other safe, nutritionally complete products for 
infants. Many mothers and health providers are unaware of the food 
requirements of infants who do not receive breast milk, because 
children in these countries have historically been breastfed for up to 
2 years. Because of these issues, some infants born to HIV-infected 
mothers receive inadequate nutrition as a result of efforts to prevent 
HIV. Several research projects are currently underway to assess the 
impact of HIV prevention programs on child survival overall and to 
determine the best way to feed infants of HIV-positive women in 
resource-limited settings.

            CDC RESPONDS TO COMPLEX HUMANITARIAN EMERGENCIES

    Through its International Emergency and Refugee Health program, CDC 
works to document the nutritional status and needs of children in 
complex humanitarian emergencies, food crises, and famines, and uses 
the results to target the most vulnerable populations and improve 
relief efforts.
    Recent surveys have been conducted in Darfur, Sudan, Niger, Chad, 
and tsunami affected areas of Indonesia. In addition, CDC provides 
technical assistance to U.N. agencies and OFDA in response to 
nutritional crises, such as the food crisis in Ethiopia in 2003, to 
assess the magnitude of the problem and prioritize intervention 
strategies and the Southern Africa crisis in 2003 where CDC assisted 
UNICEF in reviewing all survey data from the region.
    CDC supports innovative research to enhance field practice with the 
goal of reducing morbidity and mortality. Examples include 
investigating feasible interventions and programs to reduce 
micronutrient malnutrition in food aid dependent populations and the 
evaluation of new approaches to the treatment of severe malnutrition. 
In addition, CDC has helped develop guidelines, manuals, and tools for 
measuring nutritional status for both WFP and UNICEF. CDC has conducted 
many trainings on improved practices for field level and country level 
staff to strengthen overall capacity and enhance the competency of 
international agencies.
    CDC activities in Darfur are illustrative. Beginning in 2004, CDC 
and partners conducted a series of nutrition surveys to determine the 
extent of acute malnutrition among children living in conflict-affected 
areas of Darfur. The most recent survey, completed on September 21, 
2006, covered the entire 3.8 million persons currently affected by the 
crisis. These surveys have assisted the United Nations in monitoring 
the coverage and impact of their interventions over time, as well as 
providing valuable data for planning humanitarian assistance for 2004 
through 2007.
    Another example is CDC's response to the food crisis in the West 
African country of Niger. In 2005, an estimated 2.5 million people were 
potentially at risk due to food insecurity. CDC conducted a series of 
eight regional nutrition surveys in collaboration with UNICEF during 
the crisis to document the extent and severity of the problem. The 
results of the survey were used to improve the general food 
distributions in the areas with the highest levels of malnutrition and 
leverage funding from donor agencies.
    CDC's involvement in fighting malnutrition in complex humanitarian 
emergencies has a broad impact on the health of vulnerable children. 
The surveys and assessments conducted by CDC have raised awareness to 
the magnitude and severity of nutritional emergencies in crisis-
affected populations around the world and helped focus limited 
resources on the most vulnerable.
    CDC is committed to continuing to work with U.N. agencies and NGOs 
to implement best nutritional practices in emergency settings and to 
document the burden of malnutrition in emergency settings. CDC supports 
international collaboration to improve training for U.N., 
international, and local aid staff. With our partners, we are working 
to strengthen the capacity of agencies and staff in order to 
effectively and efficiently implement nutrition programs.

                               CONCLUSION

    CDC's unique contributions to addressing child hunger and 
malnutrition around the world are through the scientific and technical 
expertise we bring to partnerships for vitamin supplementation, food 
fortification, and data collection activities of the IMMPaCt and 
related programs, and the proven and effective interventions that 
prevent and control the infectious diseases that lead to malnutrition 
and are the major causes of deaths and illness in children in 
developing countries. CDC also responds to the nutrition and health 
needs of vulnerable populations who are affected by conflict, natural 
disasters, and famine.
    Collaboration with other Federal agencies is key to developing 
strong multilateral, bilateral, and private partnerships around the 
world.
    CDC is committed to continuing to address these ``core'' public 
health issues--including improved availability and access to safe water 
and adequate food and nutrition.
    Thank you for the opportunity to testify. I would be happy to 
answer any questions you may have.

    The Chairman. Well, thank you very much, Dr. Gerberding.
    Mr. Ward, would you please proceed.

   STATEMENT OF HON. GEORGE WARD, SENIOR VICE PRESIDENT FOR 
      INTERNATIONAL PROGRAMS, WORLD VISION, WASHINGTON, DC

    Ambassador Ward. Mr. Chairman, thank you for holding this 
important hearing on child hunger.
    As the senior vice president for international programs at 
World Vision, it's a privilege to be here with such a 
distinguished panel.
    World Vision is a Christian relief and development 
organization dedicated to helping children and their 
communities worldwide reach their full potential by tackling 
the causes of poverty. We operate in nearly 100 countries. More 
than 3 million donors and supporters, from every congressional 
district, partner with us in fighting global poverty.
    I'm also, today, representing the Alliance for Food Aid, 
which is comprised of 15 private voluntary organizations and 
co-ops that conduct international food programs.
    Mr. Chairman, it's a great tragedy that there are 400 
million hungry children in the world today. About one-third of 
these children are under age 5 and underweight. Poor nutrition 
during critical growth phases results in poor cognitive and 
physical development. It's all the more tragic that the world 
has the know-how to solve this problem, and yet has not done 
so.
    The solution does not require any new inventions, but it 
does require focused attention. Child hunger can be solved one 
child, one household, and one community at a time by empowering 
caregivers with the necessary tools and resources.
    One of the strengths that private voluntary organizations 
like World Vision bring to the fight against child hunger is 
that we are community-based. World Vision makes long-term 15-
year commitments to communities through our area development 
programs. These programs integrate funding from public and 
private sectors to produce targeted interventions in five main 
areas: Clean water, food/nutrition, education, health, and job 
creation. ``Integrated'' and ``long-term programming'' are the 
watchwords for success.
    Charities also provide an opportunity for private donors to 
make a real, tangible difference in children's lives. For 
example, in 2005 nearly 2.6 million children worldwide 
benefited from World Vision child sponsorship programs, with 
812,000 of these children supported by American donors.
    USAID, through P.L. 480, Title II, funds many maternal 
health and nutrition programs aimed at reducing childhood 
malnutrition. Infants and young children in their first few 
years of life require special foods with adequate nutrition 
density, consistency, and texture. This is why a number of 
Title II programs include wheat-soy or corn-soy blends that are 
fortified with vitamins and minerals. World Vision operates 
such programs in Haiti, Indonesia, Mozambique, Rwanda, Uganda, 
and Zambia.
    We note with concern that because of reduced funding for 
development food aid programs, the level and coverage of Title 
II maternal child health and nutrition programs are being cut. 
The Alliance for Food Aid urges the continued and expanded use 
of Title II food aid for these tested and successful programs.
    UNICEF and the World Food Program have done an excellent 
job in working together to create the new global initiative for 
Ending Child Hunger and Undernutrition. This is a collaborative 
public/private partnership that seeks resources to achieve 
results. World Vision supports this initiative, which 
recognizes that good nutrition and health go hand-in-hand.
    Each year, 5-6 million children die each year from 
infections that would not have killed them if they had proper 
nutrition. Over 50 percent of all deaths of young children due 
to infectious diseases, such as malaria, pneumonia, diarrhea, 
and measles, have malnutrition as an underlying cause.
    Mr. Chairman, I know you and other members of this 
committee have been strong supporters of both international and 
domestic child hunger programs. All of these programs are 
important, and we thank you for your leadership.
    On the international front, only people who are healthy and 
educated can achieve peace and security. The journey to this 
goal begins with proper child nutrition. We need congressional 
leadership and support to ensure that these critical 
international programs are funded and expanded.
    Mr. Chairman, there are many difficult problems in this 
world today that we do not know how to solve. Child hunger is 
not one of them. It is my hope and prayer that, by working 
together, we can rededicate ourselves to providing tangible 
help many children need.
    This concludes my testimony, Mr. Chairman. I'll be happy to 
answer any of your questions.
    [The prepared statement of Ambassador Ward follows:]

   Prepared Statement of Hon. George Ward, Senior Vice President for 
          International Programs, World Vision, Washington, DC

    Mr. Chairman, thank you for holding this critical hearing on child 
hunger and malnutrition. It is a privilege to be here with such a 
distinguished panel. My name is George Ward and I am the senior vice-
president for international programs at World Vision.
    World Vision is a Christian relief and development organization 
dedicated to helping children and their communities worldwide reach 
their full potential by tackling the causes of poverty. We operate in 
nearly 100 counties with 23,000 employees. World Vision has over 3 
million private donors and supporters from every congressional district 
within the United States who partner with us in fighting global 
poverty.
    I am also representing the Alliance for Food Aid, which is 
comprised of 15 private voluntary organizations and co-ops that conduct 
international food aid programs.\1\ The Adventist Development and 
Relief Agency currently chairs the Alliance for Food Aid, and the 
Alliance's executive director is Ellen Levinson.
---------------------------------------------------------------------------
    \1\ Members of the Alliance for Food Aid include: Adventist 
Development and Relief Agency International, ACDI/VOCA, Africare, 
American Red Cross, Counterpart International, Food for the Hungry 
International, Joint Aid Management, International Orthodox Christian 
Charities, International Relief and Development, Land O'Lakes, OIC 
International, Partnership for Development, Project Concern, United 
Methodist Committee on Relief, and World Vision.
---------------------------------------------------------------------------
                           PVO CONTRIBUTIONS

    Mr. Chairman, it is a great tragedy that there are 400 million 
hungry children in the world today. About one-third of these children 
are under the age of 5 and underweight. Poor nutrition during critical 
growth phases results in poor physical and cognitive development.
    It is all the more tragic that the world has the know-how to solve 
the problem of child hunger and malnutrition and yet has not done so. 
The solution does not require any new invention, but it does require 
focused attention. Child hunger can be solved one child, one household, 
and one community at a time. This solution requires empowering 
children's caregivers with the necessary tools and resources. Clearly, 
there is much work to be done.
    One of the strengths that private voluntary organizations like 
World Vision bring to the fight against child hunger is that we are 
community based. World Vision makes long-term, 15-year commitments to 
communities through our ``Area Development Programs.'' These programs 
integrate funding from public and private sectors to produce targeted 
interventions in five main areas: Clean water, food/nutrition, 
education, health, and job creation.
    Immunization, health screening and care, education, and adequate 
nutrition are critical for ensuring the health and growth of young 
children. Delivery of these services depends on the development of the 
community as a whole. Private voluntary organizations therefore use a 
combination of child services and community capacity-building 
techniques to support the health and nutrition of the child. Integrated 
and long-term programming are the watchwords for success.
    Charities also provide an opportunity for private donors to make a 
real tangible difference in children's lives. For example, in 2005, 
nearly 2.6 million children benefited from World Vision child 
sponsorship programs, with 812,000 of these children supported by U.S. 
donors.

                        USAID FOOD AID PROGRAMS

    Through P.L. 480, Title II, United States Agency for International 
Development funds many Maternal Child Health and Nutrition programs 
aimed at reducing childhood malnutrition by providing food aid for 
children. Programs include supplemental food; monitoring the weight, 
height, and health of the children; immunization, oral rehydration, and 
other health interventions; clean water; and training mothers about 
proper sanitation, nutrition, and managing health problems, such as the 
commonly found respiratory and diarrheal diseases.
    Infants and young children in their first 2 years of life require 
special foods of adequate nutrient density, consistency, and texture. 
In resource-constrained populations, children are at high risk of 
suffering from micronutrient and protein deficiencies. This is why a 
number of Title II Maternal Child Health programs include wheat-soy 
blend or corn-soy blend that are fortified with vitamins and minerals, 
including vitamin A, iron, and zinc. World Vision operates such 
programs in Haiti, Indonesia, Mozambique, Rwanda, Uganda, and Zambia.
    Maternal Child Health and Nutrition programs have been a great 
success. Positive results are evidenced by reduced stunting and 
improved weight and height among children. While children's health and 
nutrition are improved, the broader community also benefits from the 
educational and capacity-building components of the program.
    We note with concern that because of reduced funding for 
developmental food aid programs, the level and coverage of Title II 
Maternal Child Health and Nutrition programs are shrinking. We urge the 
committee to support continued and expanded use of Title II food aid 
for these tested and successful programs.

           ENDING CHILD HUNGER AND UNDERNUTRITION INITIATIVE

    UNICEF and the World Food Program have done an excellent job in 
working together to create the new global initiative for ``Ending Child 
Hunger and Undernutrition.'' This is a collaborative public-private 
partnership that seeks resources to achieve results. World Vision 
supports it. The initiative also provides a tangible focus for 
governments and private institutions to rally around to ensure the 
first Millennium Development Goal of reducing hunger by 50 percent is 
reached by 2015.
    This initiative recognizes that good nutrition and health go hand-
in-hand. Many medical interventions for children can be successful only 
with adequate nutrition. For example, 5-6 million children die each 
year from infections that would not have killed them if they had proper 
nutrition. Over 50 percent of all deaths of young children due to 
infectious diseases--such as malaria, pneumonia, diarrhea, and 
measles--have malnutrition as an underlying cause.
    The ``essential package'' developed by this initiative will 
drastically improve the nutrition and health of children. It includes: 
Health and nutrition education; supplemental food; micronutrients; 
household water treatment; hand-washing with soap; and deworming.

                         U.S. GOVERNMENT POLICY

    Mr. Chairman, I know you and other members of this committee have 
been strong supporters of both international and domestic child hunger 
programs. While not under the jurisdiction of this committee, I think 
it is critical to note the importance of the National School Lunch, and 
Women, Infants, and Children supplemental feeding programs in fighting 
child hunger in the United States.
    On the international front, only people who are healthy and 
educated can achieve peace and security. The journey to this goal 
begins with proper child nutrition. We therefore thank you for your 
continued support of the hunger-focused international food aid programs 
like P.L. 480 and McGovern-Dole Food for Education program. These 
initiatives are making a life-saving difference to millions of people 
around the world. However, the emergency demands on the P.L. 480 Title 
II resources have increasingly left little room for development 
programs such as Maternal-Child Health and Nutrition. We need 
congressional leadership and support to ensure that these critical 
programs are funded and expanded.
    Mr. Chairman, there are many difficult problems in this world today 
that we do not know how to solve. Child hunger is not one of them. It 
is my hope and prayer that by working together, we can rededicate 
ourselves to providing the tangible help many children need.
    This concludes my testimony, Mr. Chairman. I would be happy to 
answer any of the committee's questions.

    The Chairman. Well, thank you very much, Mr. Ward.
    As I introduce the next speaker, Mr. Jim Morris, of the 
World Food Program, I would just simply add, as many of you 
know, that we have been good friends and workers together for 
40 years, and I appreciate, especially, his being here this 
morning as he concludes a remarkable tenure with the World Food 
Program. His travels have been described in previous hearings 
of our committee, and I know that he will be equally forceful 
today. It's a very great pleasure and honor to have my friend 
Jim Morris.
    And would you please proceed.

   STATEMENT OF JAMES T. MORRIS, EXECUTIVE DIRECTOR, UNITED 
            NATIONS WORLD FOOD PROGRAM, NEW YORK, NY

    Mr. Morris. Thank you, Mr. Chairman. I appreciate your 
comments. And there would be no way I could express my 
appreciation for you.
    Your opening statement reflected characteristic insight and 
concern and commitment and passion for great humanitarian 
issues around the world. And we're grateful for that.
    If I might just open by saying that the international 
humanitarian community is deeply, profoundly grateful to the 
United States of America for the extraordinary generosity and 
concern for people at risk around the world. The United States 
helps us with enormous amounts of cash, brainpower, technical 
capacity, and does it in a nice way, in a caring way. And I 
worked for a man by the name of Eli Lilly for a number of 
years, and he always said, ``If you're going to do something 
nice for someone, do it in a nice way.'' And the United States 
extends its concern and generosity in the nicest way possible.
    Our partnership with USAID, with the Department of 
Agriculture, the Department of State, the Department of Labor 
is extraordinary. The historic contribution of our country 
through Food for Peace, feeding more than 6 billion people 
around the world, 135 countries over 50 years, the contribution 
of the Peace Corps, the remarkable contribution, really, that 
Julie mentioned, of PEPFAR, and the role of the land-grant 
college system in the United States in educating much of the 
agricultural leadership around the world, is extraordinary. And 
I'm grateful for that.
    The past 5 years have been a life-changing, life-affirming 
experience for me. I've spent as much time as humanly possible 
in the field. And I come from a fairly comfortable existence in 
the United States. And I must say, the faces of children around 
the world who are hungry and at risk, and are suffering, and 
their mothers--often, their mothers, maybe age 25, look like 
they're 75. The burden is extraordinary. The unfairness of life 
for so many children who find themselves in these difficult 
circumstances, not of their own making, to visit a child in a 
hospice, and to have the nurse say, ``This child is infected 
with HIV,'' and, ``Give the little girl a hug, because she 
won't be here next week,'' or to visit a little girl in 
Zimbabwe--small little girl, but she's 15 years of age, and her 
mom and dad are gone, because of HIV, and suddenly she finds 
herself mother and father, protector, caregiver for five or six 
brothers and sisters, she's never had a childhood, she never 
will, and she's completely compromised and completely 
unprepared for what she faces.
    If these issues, circumstances, affected a few children, it 
would be sad, but these circumstances affect hundreds of 
millions of children around the world. You know, more than half 
the children under 5 years of age in Guatemala are chronically 
malnourished. And if you go into the indigenous populations, 
the numbers approach 70 or 80 percent. You go to North Korea, 
and you see extraordinarily different standards between 
children in South Korea and North Korea, all related to 
nutrition.
    And, in my judgment, the life of a child in Washington, DC, 
in London or Indianapolis, the life of the child in Malawi or 
Honduras or Bangladesh, the value of the child's life is the 
same. And when the child is compromised, circumstances not of 
their own making, the rest of the world must step in and help 
to provide the physical requirements of the child. But, as 
Julie said, you know, a child needs the arm of a caring adult. 
And that is so important.
    WFP and UNICEF have been working now for a couple of years 
with our partners in the NGO community, with national 
governments, with others in the U.N. to see if we could build a 
movement, a partnership in the world that would say it's no 
longer acceptable for children in the world in 2006 to be 
hungry, it's unacceptable, it's sad, it's sinful, it's 
reprehensible. And, as we've all said, it's a solvable problem. 
We know how to do this. We know what it costs. We know what the 
approaches are that will be effective. And we know how to build 
the partnerships to get it done. This is an effort that 
requires champions, political leadership, resources, and 
commitment. And when the world understands the seriousness of 
the issue and the solutions that are available to address the 
issues, the world wants to respond. If there's one thing that 
heads of state and heads of government all around the world 
agree on, it's that women and children should not be at risk, 
should not be vulnerable, should not starve. Eighteen thousand 
children will die today of hunger, one every 5 seconds, all day 
long. Four hundred million hungry children in the world, 146 
million of them under the age of 5 years. We are talking about 
a short-term approach to saving lives. Clearly, the longer-term 
situation that Jim talked about, requiring agricultural 
investment and more capacity to produce food around the world, 
is really important. But there is a sense of urgency to look at 
this in the short term, because so many children's lives are at 
risk.
    And, as you said in your opening statement, this is about 
more than food; it's about health, it's about sanitation, it's 
about water, it's about all sorts of things. We know, when we 
make an investment in nutrition, it reduces poverty, it 
improves educational outcomes, it produces productivity, either 
by the individual life or by the country.
    Our commitment is to find a way to double the rate of 
reduction of underweight children under the age of 5 years from 
about 1.7 percent to something approaching 2.6 percent. We know 
how to approach these issues in a predictable way, a 
preventable way, and a way that is affordable. China, Chile, 
Thailand are tremendous examples where thoughtful approaches to 
these issues have produced extraordinary results. And I must 
say, Mr. Chairman, when you visit with people in Japan or 
Germany, they talk about the role the United States played in 
their country after World War II, in terms of providing food 
for children, the impact that had on bringing their educational 
systems alive. You know, I've talked to political leaders, 
ministers, members of parliament in both countries, and their 
emotional appreciation and resonance with what our country did 
to feed their children after the war, they would say that this 
made as much difference in the success, the prosperity of those 
places, than anything that ever happened.
    Our approach is to find a way to locate where the most 
vulnerable children are. It's interesting that the 400 million 
vulnerable children essentially live in 100 million households. 
Three-fourths of the hungry children in the world are in 10 
countries. Half the underweight children in Africa live in just 
10 percent of the administrative districts. The opportunity to 
approach this in a fairly narrow geographic situation, where 
the concentration of children at risk is located, makes the 
opportunity to address this easier. To work with national 
governments--as Jim pointed out, is important, as is working 
with community-based institutions. There are remarkable people 
in every country of the world that spend their life focused on 
the well-being of children. Just as we have community-based 
organizations in our cities, coaches and YMCAs and Girl Scouts, 
these same kinds of people exist around the world, and they 
simply need help. We need to work with national governments, to 
work with community-based institutions, and then to provide the 
essential package of services that, first, deal with health, 
hygiene, nutrition education. Julie also mentioned this issue 
of micronutrients, parasite reduction, the importance of 
sanitation in the household, and safe water. Handwashing with 
soap makes all the difference in the world. So, a fairly 
specific geographic approach with the provision of an essential 
package of services.
    We believe that the cost of addressing this is about $80 
per annum per household--if you're looking at 100 million 
households in the world over time, an annual cost of about $8 
billion. And our research would tell you that we have the 
infrastructure in place to address about a billion dollars of 
opportunity immediately.
    To find a way to build a movement that includes NGOs, donor 
governments, host governments, the business community, we have 
a partnership with a remarkable company, TNT, in the 
Netherlands, 170,000 employees. Every one of their employees 
has committed to feed a school child, and the company has 
agreed to match it. We have a remarkable partnership with 
Citigroup, in the U.S.--the same kind of commitment to 
humanitarian issues.
    Service clubs can also make a difference. What Rotary has 
done in the last 25 years, working with CDC and with UNICEF and 
many more, to virtually provide the leadership to eradicate 
polio in the world, they've immunized almost 2 billion children 
in the world over the last 25 years. It is extraordinary the 
leadership that Rotary has provided for this issue, and the 
success that's been made possible.
    I'm optimistic that Rotary now, with Kiwanis and others, 
may be willing to focus on the issue of eliminating child 
hunger. The same goes for the faith-based organizations, youth-
serving organizations. I spent last week, one day, down at 
Auburn University, and Auburn is spearheading an effort to 
engage not only the American Land Grant University System, but 
also colleges, across the United States in the issue of 
eliminating child hunger. They gave me a check to feed 600 kids 
for a year. I gave the commencement address at Georgetown 
College in Kentucky last year. They gave a check to feed 1,400 
children for a full year.
    Somehow, there's an opportunity for everyone to be engaged 
in this issue, for everyone to do just a little more. So little 
goes so far in the issues that we are trying to address.
    So, Mr. Chairman, that gives me the opportunity to talk 
about the magnitude of the issue, the importance of the issue. 
You know, I prefer that people look at this from a humanitarian 
point of view, but--the economic perspective, the political 
perspective, are also quite important--but, the fact of the 
matter is, if millions of people are at risk around the world, 
especially children, we're all at risk. And, you know, we're 
all diminished if anyone's diminished. And it simply is not 
acceptable today for so many children to perish every day, to 
have their lives compromised from the very beginning, when the 
resources and the technology and the willpower and the goodwill 
are available to make a difference.
    And so, my hope is that, over time, this extraordinary 
movement, worldwide, will come together and find a way for 
everyone to participate. And, at the end of the day, you know, 
none of us ever feel as good about ourselves as when we're 
doing something for someone else, especially a child, and that 
opportunity is before us.
    Thank you.
    [The prepared statement of Mr. Morris follows:]

   Prepared Statement of James T. Morris, Executive Director, United 
                Nations World Food Program, New York, NY

    Good morning Mr. Chairman, distinguished representatives, ladies 
and gentlemen. Thank you Mr. Chairman.
    Few experiences have changed my life more than holding an acutely 
malnourished child in my arms, as I did on a recent visit to Kenya. To 
hold in my arms a 1-year-old girl who weighs little more than an 
average newborn in the United States unleashes a tide of emotions. One 
can't help but feel grief for this child's pain; shame that this should 
be allowed to happen in the 21st century; anger that this child will 
not be the last to suffer this fate.
    In fact, 18,000 children will not make it through today. Their tiny 
bodies will succumb to months and years of not getting the nutrition 
they needed to survive. Millions more will have their growth stunted 
forever, their minds dulled by malnutrition, and their futures limited 
to a life of poverty and ignorance.
    The OECD reports that international aid was higher in 2005 than in 
any year in history. Industrialized countries gave US $107 billion in 
foreign aid. Despite last year's record levels, funding for global 
child health efforts have not increased significantly in the past 10 
years and investments in agricultural research have declined.

                               CHALLENGE

    Often we think about these sectors as if they are unconnected. But 
while resources may flow through different channels, they serve the 
same people, the same communities, and the same children. We must do 
more to ensure that our investments in the agriculture, health, and 
education arenas are working together on the same outcomes.
    With a depressing regularity, we see the same communities that are 
hit by drought struggling with poverty, child malnutrition, and HIV/
AIDS. In pockets--sometimes large, sometimes small--there are children 
who have been battling hunger their whole lives. Hunger and related 
diseases cause between 5 and 6 million deaths per year. The damage 
caused by malnutrition is not just death--it affects just about every 
stage and aspect of life.
    The vast majority of the children who will die today from hunger 
and related causes won't perish in a high-profile emergency. They'll 
pass, unnoticed by anyone other than their families and neighbors, in 
squalid slums or in remote dusty villages.
    We are simply not doing enough for these children. In many cases, 
we are not even reaching them, much less giving them a foothold on the 
bottom rung of the ladder of development. The evidence is clear: 
Investment in nutrition reduces poverty, increases educational 
outcomes, and boosts productivity throughout the life cycle and across 
generations.

                                RESPONSE

    That's why WFP and UNICEF are working more closely than ever with 
the widest possible group of partners to fight hunger. Our goal is 
nothing less than to end child hunger and severe undernutrition within 
a generation.
    For a start, we are working to achieve the hunger target of the 
first Millennium Development Goal (target 2). We will focus on 
supporting country efforts to double the current annual reduction rates 
of underweight children under 5. The causes of child hunger are 
predictable, preventable, and can be addressed through affordable 
means. Combined with improved research and technology, this once 
idealistic notion of ending child hunger is now operationally feasible.

                                EVIDENCE

    To be sure, there are long and short routes to improving nutrition. 
Higher incomes and better food security improve nutrition in the long-
term. But malnutrition is not simply the result of food insecurity. 
Many children in food-secure environments are underweight or stunted 
because of infant feeding and care practices, poor access to health 
services, or poor sanitation.
    We have concrete historical examples of what strategies have worked 
in places like post-war Europe and Japan, and in developing countries 
like Chile, Thailand, and China, where hunger among children has been 
dramatically reduced.
    For example, improving the nutrition of pregnant women directly 
contributes to child health. Good nutritional status also slows the 
onset of AIDS in HIV-positive individuals. It increases malaria 
survival rates and lowers the risk of diet-related chronic disease.
    The highly concentrated nature of undernourished children in 
countries makes it possible to target and support national and 
community efforts. There are roughly 400 million hungry children in the 
world today--with an estimated 146 million of them under the age of 5. 
These children live in approximately 100 million households. In Africa, 
over half of the underweight children live in just 10 percent of the 
administrative districts.
    We are proposing a set of urgent actions to address the needs of 
children at most immediate risk of death or lifelong disability from 
hunger:

  <bullet> First, that we locate the most seriously undernourished 
        children and the communities in which they live;
  <bullet> Second, that we identify and support local organizations to 
        reach them with essential interventions; and
  <bullet> Third, that we leverage complementary interventions, such as 
        childhood immunization, education, and food security efforts, 
        to the same underserved areas.

    A significant part of our effort will be promoting an ``essential 
package'' of health and nutrition interventions that can impact the 
immediate causes of hunger. It includes the basic health, hygiene, and 
nutrition practices we use daily, together with a set of life-saving 
commodities--micronutrients, household water treatment, hand-washing 
with soap, parasite control measures, and situation-specific household 
food security interventions.
    The annual household cost of these lifesaving interventions is 
roughly USD $80. In many cases we have seen that even the poorest 
households are prepared to reallocate their own sparse resources when 
these key commodities are available for purchase. In other cases, some 
component of community, national, or international assistance will be 
required.
    Over time, the total cost--with an increasing share provided by 
national governments--to assist 100 million families to protect their 
children from hunger and undernutrition is estimated at roughly $8 
billion dollars per year. Of this amount, it is estimated that 
approximately $1 billion dollars of new international resources could 
be effectively programmed immediately. This investment can change 
lives--even generations. And the costs of action are but a tiny 
fraction of what we will shoulder by doing business as usual.

                          PARTNERSHIPS SECTION

    An effort of this magnitude can only be undertaken by a strong 
partnership with solid partners.
    It will require the continued engagement of the United States 
Centers for Disease Control and their unique capacities to strengthen 
the surveillance systems and technical networks required to find and 
more effectively target and evaluate antihunger interventions.
    It will require continued leadership from the United States Agency 
for International Development and the further engagement of its 
technical contractors, uniquely placed to support the adaptation of 
technical strategies to scale in a wide range of settings.
    This effort will require expanded partnerships and strengthened 
technical capacities among the larger international NGOs, the 
community-based support networks, and the families in the most affected 
areas.
    It will require increased leadership and partnership with the 
private sector, following the stellar examples of those companies that 
have already joined this effort: Contributing their know-how in 
marketing, logistics, and health communications--and their R and D 
capacities developing new ways to deliver micronutrients, fortify food, 
and make household water safe to drink.
    In the long-term, it will require the success of agriculture and 
education efforts like the ``Education for All Initiative'' and the new 
partnership between the Rockefeller and Gates Foundation to launch a 
green revolution in Africa and dramatically improve soil fertility and 
increase the productivity of small farms.
    No one organization or sector can do it all. Together we can 
provide a framework that clearly identifies the opportunities, 
eliminates some of the obstacles, and clears some of the smoke and 
mirrors of who does what.
    I can appreciate this might appear to some to be a daunting task, 
but no more daunting than the task of polio eradication must have 
appeared 25 years ago. The partnership that formed then and has grown 
and succeeded throughout the world has now very nearly reached its 
goal. It is a living reminder to us of what happens to so-called 
``impossible feats'' when confronted with the steady and focused 
efforts of committed individuals and institutions.
    The choice that societies and communities have before them is 
whether to act now to end child hunger and undernutrition in this 
generation, or to wait for improvements in income and education to have 
an eventual--long-term impact on child growth.
    Because children are only children in the short-term, this 
initiative is focused on their immediate needs. Growing minds and 
bodies require daily nourishment, healthy care practices, and sanitary 
living conditions.
    We know what needs to be done if we are to meet the Millennium 
Development Goals and provide the basic necessities not only for a life 
of dignity and health, but also to make an economy work.
    Mr. Chairman, distinguished committee members, thank you for the 
opportunity to address you today on this most important issue.

    The Chairman. Well, thank you very much, Mr. Morris.
    And now, it's a real privilege to have Ann Veneman at this 
table. In a part of my legislative life, I was chairman of the 
Agriculture Committee for over 6 years and Ann Veneman was the 
distinguished Secretary of Agriculture who brought such 
leadership not only to our farm programs, our nutrition 
programs, and our conservation programs in rural America. It's 
wonderful that you are now serving the United Nations 
Children's Fund.
    We're delighted to have you, today, Ann. Would you please 
proceed.

   STATEMENT OF HON. ANN VENEMAN, EXECUTIVE DIRECTOR, UNITED 
             NATIONS CHILDREN'S FUND, NEW YORK, NY

    Ms. Veneman. Thank you so much, Mr. Chairman. And it is my 
privilege and opportunity to be before you, once again, in the 
United States Senate.
    It is also my privilege to be here with such a 
distinguished panel. And I particularly want to add my words of 
appreciation for my friend, Jim Morris. He--as you know, I've 
worked with him both at USDA and now in my current position, 
and I can tell you he is an extraordinary person who is doing 
extraordinary work, and deserves a great deal of credit for all 
he's doing to help the world's most needy.
    As you indicated, Mr. Chairman, nutrition is a very 
important part of what the U.S. Department of Agriculture does. 
It is about 50 percent, or more, of the USDA budget. One of the 
programs that we have always found to be most effective is the 
Program of Women, Infants, and Children, a program that really 
focuses on the nutrition of pregnant and lactating mothers and 
children under 2 years old. And that has been one of the more 
effective programs. And if you look at the kinds of issues 
we're talking about today, indeed these issues are the very 
same that we are addressing in our own country with the WIC 
program. So, as others have stated, nutrition profoundly 
affects the life of children at every stage of development, 
from conception, basically, through early childhood years. And 
proper nutrition will determine whether or not a child will be 
healthy, whether or not they will learn, whether or not they 
will develop properly, whether or not they'll reach their 
ultimate full potential.
    This spring, UNICEF released a report called--one of our 
series of reports called Progress for Children. This one 
focused on nutrition and particularly looked at how the world 
was doing in reaching Millennium Development Goal number 1 on 
addressing hunger. One of the measures of that success of--in 
implementing that Millennium Development Goal--is how many 
children under 5 years of age were--are underweight. And I must 
say that the conclusions of that report are disturbing.
    It is estimated that more than a quarter of the world's 
children under 5 years old are seriously underweight. As Jim 
Morris pointed out, that's about 156 million children in a--in 
developing countries--27 percent in developing countries fall 
into that category. Global rates have fallen only 5 percentage 
points since 1990. So, we estimate that, at our current pace, 
the world will not meet the promise of the Millennium 
Development Goals to cut the rate in half--to cut the rate of 
under-5's underweight in half--by 2015. It is estimated that 
persistent undernutrition is a contributing cause in more than 
5 million under-5 deaths every year.
    But underweight children are really only part of the story, 
and I think we've heard a lot of--about this today. While many 
children may be eating enough to fend off hunger, many are 
missing essential vitamins and minerals. Something as simple as 
the lack of iodine can lower average IQ in iodine-deficient 
children by up to 13 points. Vitamin A deficiency can make a 
child significantly more likely to die from common childhood 
diseases, like measles. And every year, iron deficiency means 
that tens of thousands of pregnant women will not live to see 
their babies born.
    If you look at the findings of this report, you see that, 
in India alone, 7.8 million babies are born underweight every 
year, and 47 percent of the under-5 population in India is 
underweight--48 percent of the under-5's are underweight in 
Nepal; 48 percent are underweight in Bangladesh. Now, when you 
compare this to the United States, the number is 2 percent.
    In sub-Saharan Africa, if you look at it as a whole, there 
is--there are 28 percent of the children, on average, who are 
underweight. In South Africa, one of the more developed sub-
Saharan African countries, the number is 12 percent under-5's 
underweight. In Ethiopia, nearly half of the children, or 47 
percent, are underweight.
    Millions of children in sub-Saharan Africa live in an 
almost constant state of emergency, fueled by war, by famine, 
and other crises. HIV/AIDS, as we've talked about, is putting 
an additional strain on communities that are already struggling 
to produce and to find food. And HIV/AIDS is leaving children 
alone and vulnerable.
    With so much at stake, we are long overdue for a new 
approach. So, we believe that the End Child Hunger and 
Undernutrition Initiative will help provide focus and resources 
to address this issue of childhood hunger around the world. 
Food aid alone is not enough. Reversing the current trends 
requires a holistic approach, as many have talked about today, 
including agricultural productivity, addressing all that helps 
to keep children healthy and developing properly, including 
healthy mothers during pregnancy, good nutrition and vitamins, 
breastfeeding, better education, effective disease control, 
policies that safeguard food access, access to clean water, and 
sanitation. It has to be an integrated approach. And we must do 
more to focus on children age 2 and under, where the majority 
of the under-5 deaths occur. If a child falls behind in this 
critical stage of under-age-2, he or she may never catch up.
    In addressing the underlying causes of malnutrition, there 
are simple, practical things that we can do to make a 
difference. The global campaign to iodize salt, for example, is 
bringing iodine to almost 70 percent of all households, and 
protecting 82 million newborns per year against iodine 
deficiency. The UNICEF-supported Accelerated Child Survival and 
Development Program in West Africa has shown results--
preliminary results of a reduction of child mortality by 20 
percent in some of the areas where we've implemented it. And 
this is by delivering a simple integrated package of both 
nutrients and healthcare to families in community-based 
settings.
    We have seen clear signs that point the way forward, and 
evidence of the strategies that do work, and that do produce 
results and make a difference. While the goals of this 
initiative are ambitious, they are not impossible, and they 
show a future where children can and will have equal 
opportunity to fulfill their unique potential.
    Thank you very much, Mr. Chairman.
    [The prepared statement of Ms. Veneman follows:]

  Prepared Statement of Hon. Ann Veneman, Executive Director, United 
                 Nations Children's Fund, New York, NY

    Mr. Chairman, members of the committee, thank you for this 
opportunity to discuss the ``End Child Hunger and Undernutrition 
Initiative,'' and the importance of nutrition to children.
    It is a special pleasure to appear with my U.N. colleague, Jim 
Morris, of the World Food Program, who will be ending his tenure next 
year. He has been a valued partner and friend for several years, and so 
committed to the work of the World Food Program. He has a record of 
boundless energy, compassion, and creativity.
    When I last appeared before a Senate committee, it was in my 
capacity as the U.S. Secretary of Agriculture. Nutrition programs 
accounted for some 60 percent of the USDA budget. At UNICEF, I continue 
to pursue effective, strategic approaches to the health of mothers, 
babies, and children, which was a hallmark of USDA's WIC, or Women, 
Infants, and Children Program.
    Nutrition profoundly affects life at every stage of development, 
starting before a child is even born. It helps determine how healthy a 
child will be, how fast she will grow, how easily she will resist 
diseases, how well she will learn at school, and whether her own 
children will reach their full potential.
    It is critical that we understand the vital importance of nutrition 
and how serious undernutrition is around the world. One underweight and 
undernourished child is an individual tragedy. But multiplied by tens 
of millions, undernutrition becomes a global threat to societies and to 
economies.
    ``Underweight'' is the indicator that is used for undernutrition 
because it is one of the most visible and easily measured attributes, 
and because it correlates strongly with disease and premature death. A 
few months ago, UNICEF released its ``Progress for Children'' report, 
revealing where the world stands on the first Millennium Development 
Goal, which seeks to cut in half by the year 2015 the global proportion 
of underweight children.
    The conclusions of that report, which I would offer for the 
complete record of this hearing, are disturbing. Undernutrition is a 
global epidemic. In a time of plenty, it is estimated that more than 
one-quarter of the world's children under the age of 5 are seriously 
underweight. In developing countries, about 146 million children, or 27 
percent, fall into that category. Global rates have fallen only 5 
percentage points since 1990. At our current pace, we will not meet the 
promise of the Millennium Development Goals to cut the rate in half by 
the year 2015.
    [Editor's note.-- The report mentioned was not reproducible in this 
hearing but will be maintained in the committee's permanent record.]
    It is estimated that persistent undernutrition is a contributing 
cause in more than 5 million under-5 child deaths every year. But 
underweight children are just part of the story. While millions of 
children are eating enough to fend off hunger, many are missing the 
critical vitamins and minerals they need.
    Something as simple as a lack of iodine in diets can lower the 
average IQ in iodine-deficient children by up to 13 points. Vitamin A 
deficiency can make a child significantly more likely to die from a 
common childhood disease like measles. And every year, iron deficiency 
means tens of thousands of pregnant women will not live to see their 
babies born.
    According to ``Progress for Children,'' only two out of seven 
developing-country regions are making sufficient progress to meet the 
Millennium Development Goal target. But there are bright spots in every 
region, and there is particularly good news in China. The country with 
the highest population on Earth already met the Millennium Development 
Goal target regarding underweight children more than 10 years ahead of 
schedule. The proportion of underweight children in China dropped from 
19 percent in 1990 to 8 percent in 2002, thanks in part to a strong 
government commitment to make nutrition a priority.
    This dramatic progress shows we can make swift advances in a very 
short time if we take a comprehensive approach to a child's needs.
    The worst crisis is in South Asia, where almost one in two children 
under age 5 is underweight, or 46 percent. In India alone, 7.8 million 
babies are born underweight every year. That equates to the combined 
population of the State of Virginia and the District of Columbia.
    Sub-Saharan Africa, as a whole, has been largely stagnating, with 
28 percent of its children under 5 years old underweight. In South 
Africa, 12 percent of the children under 5 are underweight. In Niger, 
the rate is 40 percent; and in Ethiopia, nearly half of all children 
under 5, 47 percent, are underweight.
    Millions of young children in sub-Saharan Africa live in an almost 
constant state of emergency, fueled by war, famine, and other crises. 
HIV/AIDS is putting additional strain on communities that are already 
struggling to find adequate food, and leaving children alone and 
vulnerable.
    Examples from other individual countries show the rate of 
undernutrition is 48 percent in Nepal and Bangladesh, 47 percent in 
India, and 46 percent in Yemen and Timor-Leste. In Guatemala, the rate 
is 23 percent, the highest in Latin America and the Caribbean. In 
Albania, 14 percent of children under 5 are underweight, the highest 
rate in Central and Eastern Europe and the Commonwealth of Independent 
States.
    Compare that to only about 2 percent in the United States.
    We cannot blame this global epidemic on food shortages alone. These 
numbers reflect broken health and education systems in countries, poor 
governance and corruption, and a widespread failure to provide basic 
services, such as clean water and sanitation. With 2.6 billion people 
living without a simple toilet, diarrhea has become one of the world's 
leading causes of child deaths and malnutrition.
    We also know the importance of educating girls, and keeping mothers 
healthy, especially in the developing world. Millions of women and 
girls come into pregnancy too young and too often. Far too many are 
malnourished themselves, and very few spend their teenage years in 
school. This impairs their ability to bear, raise, and care for healthy 
children. At least 20 million babies are born underweight every year in 
developing countries, which puts them at a higher risk of an early 
death.
    With so much at stake, we are long overdue for a different 
approach. We believe the ``End Child Hunger and Undernutrition'' 
initiative will provide focus and resources to address childhood 
hunger. Food aid alone is not enough. Reversing the current trends 
requires a holistic approach to what keeps children healthy and 
developing properly. This includes healthy mothers during pregnancy, 
breastfeeding, better education, effective disease control, and 
policies that safeguard food access, even in times of crisis. There 
must be a special focus on protecting children under age 2. If a child 
falls behind during this critical development stage, he or she might 
never catch up.
    In addressing the underlying causes of malnutrition, there are 
simple, practical things we can do that make a critical difference. The 
global campaign to iodize salt, for example, is bringing iodine to 
almost 70 percent of all households and protecting 82 million newborns 
per year against deficiency. The UNICEF-supported Accelerated Child 
Survival and Development program in West Africa has managed to reduce 
child deaths by an estimated 20 percent in some areas by delivering a 
simple, integrated package of nutrients and health care to families in 
community-based settings.
    It is time to believe in, and invest in, the scaling up of programs 
that yield results for children. We have seen clear signs that point 
the way forward and evidence that our strategies work. While our goals 
are ambitious, they are not impossible, and they show a future where 
children have an equal opportunity to fulfill their unique potential.
    Thank you, Mr. Chairman.

    The Chairman. Well, thank you very much, Secretary Veneman.
    Let me begin the questions by noting that in your testimony 
each of you has mentioned the importance of partnerships in 
fighting hunger and malnutrition. The World Food Program and 
UNICEF are partnering in their new initiative. Mr. Kunder gave 
a few examples of partnerships in his written testimony, such 
as the USAID/UNICEF/Kiwanis partnership to address iodine 
deficiency and partnering with pharmaceutical companies to 
develop zinc tablets. But, as I listen, each of you has 
mentioned how some of your efforts intertwine. Can each of you 
give some idea of who's in charge here? Now, that's not meant 
to be provocative. Obviously, there are U.S. Government 
agencies, there are faith-based initiatives, service clubs, and 
the United Nations. But as Mr. Morris said, if you were to seek 
out 10 top countries that have a majority of the problems, or 
10 particular sectors, even in Africa--if there was a so-called 
business plan for all of this--and maybe there is--perhaps 
there would be some greater confidence that the goals are going 
to be met, and that United States investments, whether they are 
public or private, are on target, as opposed to solving one 
problem, only to run into another. Dr. Gerberding was skillful 
in pointing out that in a progression of four or five different 
programs, you lead to the possible treatment for HIV/AIDS, 
which would not be successful without the intervening steps in 
front of that. And that shows a degree of sophistication which 
is very, very important to describe.
    But I'm just hoping for some reflections as to where the 
business plan is, who's in charge, or if anybody ought to be, 
and how we come to grips with the overall organization of the 
effort.
    Now, let me ask you, Secretary Veneman, because you have 
presented a report that attempts to go into the Millennium Goal 
No. 1 and the graph of child nutrition around the world in 
which the red countries are those that are either not changing 
or falling back, and the blue countries at least are on track 
to reach this first target. Insufficient data is the case for 
some situations such as all of the Korean Peninsula or Libya or 
Argentina or some countries in sub-Saharan Africa. So, we 
really don't know, I suppose, at this point. But at least there 
is an attempt being made here, graphically, to portray, with 
this goal, how we're doing, collectively.
    Would you address that question, first of all, as to the 
overall ``who's in charge''?
    Ms. Veneman. Well, Mr. Chairman, I think it's a very 
appropriate question, because I think that as I've come into 
this world of development, and development agencies, one of the 
things, I think, that we have to be addressing is, how do we 
work closely together on issues related to poverty alleviation, 
hunger, healthcare, and the whole range of issues that impact 
people in the developing world. And so, it's critical that we 
work in partnerships. And I think one of the ways that we 
collectively address these issues is by having common goals, as 
this nutrition initiative indicates--the Millennium Development 
Goals, for example, are common goals--and that we collectively 
measure results, collect data in a uniform way, so that we can 
measure the progress that we're making.
    One of the things that we hope to address with this 
initiative is, it was begun as a partnership between WFP and 
UNICEF, partly beginning--as I came into this job, Jim Morris 
and I started talking about this partnership--we've tried to 
make it as broad as possible. The World Bank's been very 
involved. A number of NGOs have been very involved. WHO's been 
very involved. So, it attempts to bring all of the parties 
together in a cohesive way to address the issue, particularly 
of child hunger, but recognizing how important hunger is to so 
many other things--children's health, to education--you can't 
learn if you don't have enough to eat--and also to bring in the 
NGOs.
    I began, in August, chairing a committee on nutrition, 
which is all of the agencies of the U.N. that deal with 
nutrition, as well as NGOs and governments, and many 
universities, and that committee, also, is a major part of this 
End Child Hunger Initiative. So, we are trying, really, to 
address the very issue that you're bringing up, and that is, 
how do we bring all of the various parties that are involved 
together around common goals and trying to achieve common 
results in areas which are most in need?
    The Chairman. Now, at UNICEF--and you've mentioned the 
partnership with Jim Morris and the World Food Program--you're 
dealing as officials of the United Nations, so presumably you 
have the attention of all of the countries that are members of 
the United Nations. By definition, at least, that's the group 
that you represent. The NGOs, I gather, could be international 
organizations also, in some cases. The World Bank certainly has 
many of the same constituents. But is this how you come to 
grips with all of the governments or humanitarian resources of 
the world? At least through the United Nations setup there, you 
have some reporting situation.
    Ms. Veneman. Well, I think that is a very important 
question, as well, because--you know, particularly as the U.N. 
has addressed this high-level panel on coherence, one of the 
things we see is the importance of also--particularly donor 
governments working in a cohesive manner within its own 
agencies and with other governments and with the U.N. agencies 
and with NGOs. So, I do think that we all have to work very 
closely together to address the kinds of issues that we're 
talking about. And what we hope to do with an initiative like 
this is to rally all of the various parties around common goals 
and trying to achieve common results. And I think that's one of 
the best ways we can work to achieve the kind of results we 
want to see and to help children.
    The Chairman. Mr. Morris, do you have a comment on this 
question?
    Mr. Morris. Sure. Essentially, there's no one in charge. 
Hopefully, we'll all be focused on those who need our help, and 
that common mindset will draw us together. But, really, the 
leadership needs to come from the country where the problems 
are being addressed. The Government of Malawi needs to own the 
responsibility and provide the leadership to draw us together. 
They need to have one plan, one coordinating mechanism, one 
system for monitoring and evaluation that we all buy into. 
UNAIDS has really done a good job on what they call the ``three 
in one'' theory of one plan, one mechanism, one evaluation 
system to look at the HIV/AIDS issue country by country. And, 
ultimately, the responsibility for addressing what we're 
talking about is a country responsibility. And our job is to be 
there to be helpful.
    Now, there are very difficult issues of capacity and 
resources, technical competency, that the rest of the world 
will have to provide. But the only chance for this to be 
sustained, and, really, to work, is if the country where the 
work's being done is in charge.
    The Chairman. Now, I know, from personal conversation, that 
you have visited North Korea and Zimbabwe, to take two cases. 
And clearly a number of children, or maybe others, were fed 
through the efforts of the World Food Program, but, on the 
other hand, on some occasions, for instance, the Government of 
North Korea has taken the position that, ``We don't need you 
this year.'' In an imperfect world, there is no real answer to 
this, but the fact is that a number of people are starving 
because they have governments that do not have a very good plan 
or, in fact, are not particularly receptive, during certain 
years, to this kind of aid. And I gather that the World Food 
Program has, in a humanitarian way,
persisted to insist that there are still hungry people there, 
despite the politics, and that you would like to help, or you 
would like to insinuate help, in those situations.
    Mr. Morris. Of the 191 members of the United Nations, you 
couldn't have picked two better examples to discuss. 
[Laughter.]
    Mr. Morris. North Korea and Zimbabwe are both very 
difficult places. We provided food, this past year, for more 
than 5 million people in Zimbabwe. The last 5 or 6 years, we've 
been providing food for a third of the population of North 
Korea, with good support, by the way, from the United States. 
Our job there is to save lives. And we've had to find a way to 
do our work so that we can get food distributed to those who 
need it.
    Now, the Zimbabwe situation is very interesting. We've made 
it clear to the Zimbabwe Government that we're there to help. 
We're there, not in a political role, but a humanitarian role, 
and our job is to get food to people who are most at risk, 
absent any other consideration. We have 24 NGO partners at the 
high point in Zimbabwe, World Vision being one of the best, 
that enable us to distribute food to more than 5 million 
people, and to do all the distribution through private 
mechanisms.
    I suspect that Zimbabwe does not have a plan to address the 
kinds of issues that we are focused on. And I'm very concerned 
about Zimbabwe. They have more than a million orphans because 
mom and/or dad has died of HIV/AIDS. The predicament is 
extraordinary.
    In North Korea, you know, our job has been simply to get 
food to millions of people who need it. Before we were there, 
people were dying in that country. And with UNICEF, we've found 
a way to turn the situation around, to reduce dramatically the 
percentage of chronically and acutely malnourished children, to 
reduce the percentage of children underweight. We've not made 
much progress with the issue of anemia with women. It's been 
steady.
    North Korea came to us last year, all of us, and said, 
``We're no longer in an emergency situation. We don't need you 
to do emergency work. We want you to begin to do development 
work.'' And our plan for North Korea this year is to provide 
food for 1.9 million people, mostly in the northeast, away from 
Pyongyang, where things are the most difficult. They've 
recently had floods, and we've gone in to feed another 55,000 
people during the crisis.
    But these are two places that need to be more thoughtful 
about addressing the issues that we're all concerned about. I 
agree with you.
    The Chairman. Mr. Ward, mention has been made of World 
Vision in Mr. Morris's comments. Do you have an overall comment 
about these issues?
    Ambassador Ward. Yes, Mr. Chairman, I do.
    I think, first of all, on the question--I'd just like, very 
briefly, to return to the question of who's in charge. And I 
think that needs to be answered in two ways. First, who's in 
charge really needs to be the families in need, because unless 
the families--they know best their needs, and they also are the 
ones who are going to have to implement solutions. So, we need 
to--we need to find solutions that they can adapt to and that 
they can implement. And that's World Vision's way, is--
throughout the world, to work very, very closely, not just with 
national governments, but also with community-based 
organizations, at the grassroots level, to find solutions that 
people can actually use and to find the kind of prioritized 
interventions that Dr. Gerberding was talking about, so that we 
can get in there and help people.
    But I also think that we need--we need the international 
partnerships. We need the partnerships that are really 
blossoming now between international organizations, national 
governments, and international NGOs in this field of food and 
nutrition, and also in health. And we have, as unifying 
principles, the Millennium Development Goals, which are very 
clear, and which provide, perhaps for the first time in this 
business, very clear targets.
    So, we are working together, not--in Zimbabwe, for 
example--not just with World Food Program, but also benefiting 
from grants from USAID and feeding--we have a very active food 
program in Zimbabwe, and we're able to continue, because we're 
connected to the communities. It's--that's also true--for 
example, I was, earlier this year, in Afghanistan, where we 
work in a difficult situation, a situation where travel is 
difficult, security is a challenge, but we're connected to the 
community, and we find that very, very important in our work.
    The Chairman. Dr. Gerberding, do you have a comment on this 
question?
    Dr. Gerberding. Thank you.
    I've been thinking a lot about it, because this question 
about who's in charge comes up in a lot of settings--terrorism, 
hurricane preparedness, and so forth. And I feel very fortunate 
to work in a department led by a secretary, Secretary Leavitt, 
who sees the world as a network. And I really agree with him. 
And I think what we're talking about here is a very complicated 
network of organizations and individuals, from government and 
nongovernment sectors who are all working on the same problem. 
But there is no one in charge of the network, and I very much 
agree that ultimately the decisionmaker has to be the Minister 
of Health or the leader of the affected countries.
    But I think what we're learning to do in these very 
complicated times is to understand better what makes a 
networked effect successful. And it really is having a very 
clear goal and a very clear set of strategies so that, wherever 
you are in the network, you understand the goal and the 
strategies, you agree to the measures, but then you can 
identify, ``Okay, if that's what we want to accomplish, what's 
my part? What can my organization do? What can I bring to bear? 
And how can I measure our own contribution to the overall 
goal?'' And I think that's fundamentally what we're learning to 
do.
    UNICEF and the U.N. is an amazingly important convening 
force to get us all around the table to decide and contribute 
to the goals and the strategies, but once those are 
established, then the network is, in a sense, self-governing, 
because we know what we're supposed to be doing, and we work 
really hard to be an effective contributor to that effort.
    So, it's a different way of thinking. It's also a different 
kind of leadership, because it isn't that ``I'm the boss'' sort 
of leadership, it's ``What is my collaborative role here, and 
how can I influence and bring other people to point in the same 
direction?''
    The Chairman. Mr. Kunder.
    Mr. Kunder. Mr. Chairman, I'm very glad you asked us for 
our reflections rather than the answer. [Laughter.]
    Mr. Kunder. As you know, we've just had the committee lead 
us in a lot of discussions on how we can coordinate even 
better, even within the U.S. Government. And this larger 
question of how we communicate to the international 
communities, interventions, is critical. I would agree with Ann 
Veneman that part of this is the framework of the Millennium 
Development Goals, because we do have an overall framework. And 
I would very much agree with Jim Morris that we--however we 
look at this--have to keep the local, the country leadership, 
out in front. Because if we all come in from outside and have a 
great coordination plan, but if there's no buy-in at the 
country level, it's not going to be sustained.
    And I found myself agreeing with Dr. Gerberding, as well, 
that part of this is a systems approach. And one of the things 
we tried to point out in my testimony, is that, for example, in 
USAID's work to try to do more with food fortification, part of 
the problem is to pull apart these complex issues, like child 
survival, and then really target the objectives on the 
component problems, because while we're dealing with global 
initiatives, global problems, and global organizations, I've 
found that, certainly, there's an inverse relationship between 
the complexity of the problem and the amount of mobilization of 
resources and public support you can get around them. That's 
why, as Jim was saying, one of the successes of the polio 
immunization campaign is, in polio, you're targeting it. And 
what we're trying to do is, by focusing on initiatives like 
micronutrients or food fortification, the more you can target 
it, the better we can get the focused coordination.
    One last element that I think we haven't touched on--or 
maybe Jim touched on just briefly--that is absolutely critical, 
is we've got to get the private for-profit corporations 
involved. And, I mean, not just something bold, like the recent 
Gates-Rockefeller initiative on food production, but something 
like food fortification. This is a critical way of spreading 
the costs among producers and consumers, not just the taxpayers 
here or in Malawi. And in the private sector, I think we're 
just scratching the surface on the enormous resources that we 
can bring to bear on addressing this problem of hunger.
    Thank you, sir.
    The Chairman. Yes, Jim.
    Mr. Morris. Mr. Chairman, just one comment. Not answering 
your question about who's in charge, but--I believe the 
leadership of the United States of America is absolutely 
critical in making progress on the humanitarian agenda. For the 
United States to tell the world how important it is to address 
the Millennium Development Goals of reducing hunger and poverty 
for children, infant mortality, maternal health, HIV/AIDS, 
universal primary education, gender equity, and--the leadership 
of the United States on these issues bringing the world 
together to talk about these issues, and for the world to know 
how strongly our country cares about these issues. And, in 
fact, the United States has earned, and deserves, the 
opportunity to do that, shows great leadership on HIV/AIDS. 
Eighty percent of the research money for AIDS comes from 
National Institutes of Health, and PEPFAR has made the most 
remarkable step forward on HIV in the last 20 years. The 
McGovern-Dole school feeding program and of course Food for 
Peace, both demonstrate sustained unprecedented humanitarian 
commitment. And the world really, I believe, cries out for 
leadership from our country on these issues.
    The Chairman. Well, I agree. And let me just add as a 
footnote, without extending this particular question, but 
yesterday it was a privilege to visit with the President's new 
envoy to Sudan, Andrew Natsios, who is well known to all of 
you. He had many comments to make about that intervention and 
this potential for success. But one of the elements of this is 
a very practical one, that from certain tribes in the south who 
have been very badly disadvantaged in the turmoil, about 2 
million livestock have been taken. Now, in short, this is not 
only a question of people shooting at each other, but, in a 
very, very severe systemic way, the livelihoods of all of those 
tribes, without their livestock and without their land, is very 
grim. They could have some existence in refugee camps for 
periods of time, at the sufferance either of the government or 
of the rest of the world that might be able to inject some food 
and nutrition, some hope, into that situation. But we are 
faced--as a Nation, or as a world, as the case may be, if there 
is to be some equilibrium and some future for all of Sudan--
with the replacement of about 2 million animals, in addition to 
land-equity situations and emergency feeding. And this is often 
the case, as Secretary Veneman has testified before, with 
agricultural situations. They are enormous, in terms of simply 
the productive facilities, the abilities of people to continue 
on a normal livelihood; in this case, it is very much akin to 
food.
    Let me ask this, because there have been, as some of you 
have touched upon, some recent remarkable initiatives with 
regard to fighting hunger. And specific mention has been made 
of the Gates and Rockefeller Foundations, and, in fact, a joint 
initiative of the two, for an agricultural Green Revolution in 
Africa, through programs that among other things, increase crop 
production and improve irrigation. In general, there's been 
testimony that the private sector in our country, corporate 
America, and others, ought to do more. What I find to be 
especially exciting in the past 12 months is the extraordinary 
outreach of private foundations, people who have extraordinary 
wealth that have decided to devote it to very important 
humanitarian causes. Now, what I would like to gain from you is 
some sense of how these initiatives, some of which are in the 
area of agricultural research and long-term or intermediate 
steps, as opposed to emergency ones or systemic feeding of 
people, fit. If there was more philanthropy, to what extent 
does it begin to fill the gap with regard to the financial 
resources and, in some cases, the organization of these 
efforts? Does anybody have a comment on that issue?
    Yes, Ann.
    Ms. Veneman. Well, I will be happy to attempt to address 
some of this.
    I think you bring up a very important point, and that is 
the new focus, particularly brought about by the Gates and 
Rockefeller Foundation, on the need to really address the root 
of the problem, the root of hunger, in terms of food 
production. In 2003, I held a Science and Technology Conference 
in Agriculture, ministerial conference that brought together 
over a hundred countries, and almost 120 people at ministerial 
level. The main speaker, or one of the most impressive 
speakers, was Norman Borlaug, who, as you know, started the 
Green Revolution that was so successful in India. And he 
basically challenged, particularly the African ministers that 
were there, if we don't begin to address these issues in a 
systemic way and take advantage of new technologies, whether 
it's new seed varieties, utilizing fertilizers. One of the 
things that came out of that conference was the need for both 
water quantity and quality to produce food.
    But I think that there are so many opportunities to apply 
basic technologies, as well as better work with extension 
systems. As I've traveled throughout Africa, one of the things 
I've seen--you see extension stations, but they don't seem to 
be having the kind of work and impact that they once had.
    The other thing that came out of this conference we had in 
2003 was, one of the--one of the findings was that the 
foundations, like the Ford Foundation and the Rockefeller 
Foundation, weren't engaged in food production and agriculture, 
like they once were. And so, as this Gates-Rockefeller 
initiative comes forward, I think it's a very important new 
development to recognize how important it is, particularly for 
Africa, to have the kind of thing, a Green Revolution, to 
address the issue of food production, because I think whether 
it's--you know, in some places, we see overpopulations of 
cattle, because cattle are the measure of wealth; they don't 
put their money in the bank, they--you measure your wealth by 
how many head of cattle you have. In other places, like you 
indicated, the Sudan, where they've lost their only, really, 
source of wealth by losing all of their cattle, so the 
agriculture end and, sort of, economic development of wealth 
generation becomes very intertwined with the issue of proper 
nutrition and hunger.
    I think it's extraordinary what Gates is doing, what Warren 
Buffet is doing, what others are now doing. And it's not just 
private foundations. It's, how do we address corporate social 
responsibilities? How do we better engage universities to work 
together? How do we build capacity in universities in 
developing countries to help address some of these issues? And 
I think all of these are critical as we move forward.
    The Chairman. Yes, Mr. Ward.
    Ambassador Ward. Mr. Chairman, I think that the initiatives 
that we've seen in recent months by the Gates Foundation, the 
Rockefeller Foundation, and other foundations, are very, very 
important, especially because they are focusing on using 
technology to find new techniques and new ways of solving the 
problems that we all face.
    What will be important as we move into the future is to 
find ways of disseminating that technology in a sustainable 
fashion, and I think that's where governments and international 
organizations and NGOs can play a large role. The--for example, 
the Millennium Villages Project, which is run out of an 
institute at Columbia University, is a project which is 
attempting to bring in new agricultural technologies to 
villages in various areas in Africa. We're partnering with them 
in a way--to try to see if their scope for socializing these 
techniques into our community development projects, our area 
development programs throughout Africa, so as to give them 
roots within the community and make them sustainable, so 
they'll go forward on their own.
    The Chairman. Ms. Gerberding.
    Dr. Gerberding. Just thinking a little bit more generic, 
you know, we are thrilled with what's happening with Gates and 
Buffet, from a CDC perspective. But, to me, it reflects on two 
out of the three most important things we need to do to solve 
these problems. And you've mentioned innovation. And I think 
the ability of the private sector to innovate probably exceeds 
even that of some of our government research enterprises, in 
that what this allows innovators to do is to take some risks. 
And it's very difficult to take risks with government dollars, 
but it is possible to take risks and stretch your brain and get 
out of the box with these private-sector enterprises, because 
that's what they expect us to do, and they understand why 
that's important.
    So, the innovation is definitely a part of this. But, also, 
it's the scaling. And if you want to scale up a problem 
solution that you have in one area, you have proof of 
principle, and you want to make it more widely available, there 
are not too many options. One is, you can get more investors. 
Another is, you can get more money per investor. And third is 
that you can get more value for the money that you have. And I 
think these large-scale investments, whether it's the U.S. 
Government through PEPFAR or the Gates-Buffett enterprise, the 
Global Fund, some of the private-sector opportunities that are 
coming to the--into play now, really allow us to scale in one 
those three ways, in very exciting ways. I don't think any of 
us have ever really been more excited that there is a much more 
tangible possibility of solving some of these huge problems now 
with this scaling opportunity that we have. But the third 
thing--innovation scale--the third thing really is the issue of 
sustainability. And that, I think, we have some ideas about 
what is the requirement for sustainability. But I personally 
believe we need much more work in this area, and I would really 
look forward to learning from my colleagues on how we can 
support a more sustainable uptake of these opportunities that 
are in front of us now.
    The Chairman. To underline your point, before this 
committee we've had testimony with the Gates Foundation and 
their fight against HIV/AIDS, that some type of inoculation for 
prevention is possible, and even suggesting, maybe, within a 
10-year period of time. And just to underline your point--this 
is not exactly relevant to nutrition, but it is, in various 
ways, as we've seen the intersection of this--but this type of 
intensive research, with the risktaking that's involved, all of 
the paths that don't work out, combinations that don't 
register, perhaps could only be done by private initiative, 
private foundations. So, the intersection, now, of these large 
sums of money and this leadership is probably a very, very 
important development.
    Let me ask you for your comment, Mr. Kunder, and then I'll 
recognize my colleague Senator Sarbanes.
    Mr. Kunder. Just very briefly, sir. I--first of all--have 
just two comments. One is, there are still some very basic 
research agenda items that--have to be completed, and we're 
still looking at what's the optimal combination for food 
fortification. And some of this is basic social marketing 
research. I've included some examples in my testimony of the 
kinds of things we're using for fortification around the world. 
It could be fish sauce in Vietnam, because that's what we've 
found is the most culturally appropriate way to get these 
micronutrients into the diet. And there are still tens of 
millions of children who don't have properly iodized salt 
around the world. So, there's some low-hanging fruit that still 
has to be done. So, my comment is, as we rush to the future, 
we've still got some basic problems to solve, and those require 
funding, and they require some not-very-glamorous solutions, 
but they're critical to improving children's nutrition.
    Thank you, sir.
    The Chairman. Excellent point.
    I'd like to recognize, now, Senator Paul Sarbanes, the 
distinguished member of our committee from Maryland. And would 
you please proceed, Paul, with your statements or questions or 
comments on this.
    Senator Sarbanes. Well, maybe I'll fuse the two together 
Mr. Chairman.
    The Chairman. Excellent.
    Senator Sarbanes. First of all, I want to commend Senator 
Lugar for holding this hearing. I think it's an extremely 
important hearing. And I want to underscore something he said 
in his opening statement, and I'd just quote him, very quickly, 
here, ``Although famine and starvation are the most severe and 
visible forms of hunger, poor nutrition, which often goes 
unnoticed, can also be deadly.'' And he goes on to develop the 
point about the critical link between malnutrition and poverty, 
how it really handicaps young people as they try to move ahead, 
in so many ways. So, I think it's an extremely important point, 
and it underscores the breadth of this problem.
    I'd like to ask the panel this question. Regrettably, the 
budget submitted by the President in fiscal 2007 reduced 
funding for a number of programs that involve child survival 
and health. The Child Survival and Health account itself was 
substantially reduced. Development assistance was reduced. 
International disaster and famine assistance were reduced. 
There was a massive increase requested for the Millennium 
Challenge Corporation.
    Now, I support the Millennium Challenge Account, but I 
think there is a disproportionate amount of resources being 
provided to it. And, of course, the MCC has a large pipeline, 
because they haven't been able to move the funds. At the time 
that that program was sold to the Congress, it was asserted 
that support for the MCA would not come at the expense of 
established development programs, including those designed to 
combat child hunger around the world.
    Now, regrettably, that's not been the case, and I am 
interested in hearing, from the panel, how severely you feel 
these existing programs have been impacted by the diminishing 
of resources available to carry the programs forward.
    Mr. Kunder, why don't we let you come last, since----
[Laughter.]
    Senator Sarbanes. In the----
    Mr. Kunder. Sir, as you well know, I'm here both as a 
administration witness and as a USAID witness, so you've put me 
right on the cusp of----
    Senator Sarbanes. All right, in the spirit----
    Mr. Kunder [continuing]. This critical issue.
    Senator Sarbanes [continuing]. Or rebuttal--no, I'll start 
over here with Mr. Ward and come across the panel. [Laughter.]
    Mr. Kunder. Sir, I'm more than glad to take a crack----
    Senator Sarbanes. Yes.
    Mr. Kunder [continuing]. At it.
    Senator Sarbanes. All right. All right.
    Mr. Ward.
    Ambassador Ward. Yes, thank you very much, Senator.
    I think we need to look at this question in the context of 
the overall move by the administration to reform foreign 
assistance, and to reorganize foreign assistance. Oh, and the--
I think, NGOs, in general, applaud the administration's 
intention to rationalize some of the processes around foreign 
assistance, but we look at the process with a bit of 
trepidation, because, as we look at the priorities set forth in 
the foreign--various foreign--in the foreign assistance 
program, we would feel more comfortable if some basic 
humanitarian needs were given a bit higher priority than they 
seem to be, although we've had assurances that humanitarian 
needs will not be neglected, and we appreciate the increases 
that we've had in the past.
    However, in the current budget, for example, food aid is--
the proposal for food aid is, we believe, far short of what the 
requirements for food in the coming months will be, and we 
believe that the Title II appropriation should be around $2 
billion, which would provide for both relief and development 
needs under Title II. And yet, the administration has not 
requested that amount, given the--I suppose, the fiscal 
constraints. But we would like to see the amount for food aid 
programs increased so that we could address some of the 
childhood nutrition programs that we've talked about today.
    Senator Sarbanes. Yes.
    Ms. Veneman.
    Ms. Veneman. Thank you, Senator Sarbanes.
    I haven't studied the budget in detail, so I don't feel 
confident to comment on the specifics. I would say that UNICEF 
is very grateful for the tremendous support of the U.S. 
Government for the work that it does in education, in health, 
in nutrition interventions, which are--have absolutely been 
critical. And the United States is UNICEF's biggest donor.
    But I would comment, just for a moment, on the MCC, because 
I recently, in--at the end of July, was in Ghana, just before 
the MCC agreement was signed between the State Department and 
the president of Ghana. And one of the things I asked, in some 
detail, in meeting with the officials in Ghana was, what kinds 
of programs will the MCC fund? Will they be consistent with, 
you know, support for things like education, improving 
healthcare systems, particularly for children, and so forth? 
And I was very pleased that the kinds of things that the MCC 
was investing in, the kinds of programs they were negotiating 
with governments, are very consistent with the kinds of things 
we are collectively working on to try to address, to improve 
the lives of people who are living in poverty, and particularly 
children.
    So, again, I think that we need to look at all of the kinds 
of assistance, as a whole, to see whether or not the goals are 
being achieved.
    Senator Sarbanes. Mr. Morris. Mr. Morris, I might note that 
you wrote a very moving column in the Washington Post, back in 
the spring, and you started off that column, and I quote you, 
``The U.N. World Food Program recently had to make a terrible 
decision, one that would give even King Solomon pause: either 
to halve''--cut in half, halve--``food aid rations for almost 3 
million people in Darfur--one of the world's worst humanitarian 
emergencies--or halve the number of recipients.'' And it helps 
to underscore this problem, I think, that Chairman Lugar 
outlined in this opening statement. But how do you see this 
situation?
    Mr. Morris. That particular decision in Darfur was a 
decision to go from allocating 2,100 calories per day per 
person to 1,100 calories per day per person, because we had to 
be confident that we had at least 1,100 calories per person 
through the long rainy season. At that time, the United States 
was providing 85 percent of what we had to work with in Darfur. 
The United States is overwhelmingly our most generous partner 
in Darfur and the rest of Sudan. In August, we fed 2.6 million 
people in Darfur. We couldn't get to another 400,000 because of 
the violence in Darfur, but continued to support another 
230,000 refugees across the border, in Chad. This is, of 
course, a situation that cries out for a political solution. 
These were people that were leading good lives, by their own 
standards. They want to go home, but they're afraid to go home. 
I've spent a lot of time in Darfur, and I've never seen people 
so frightened.
    But we were able--after we had that intense period of 
advocacy, to get back to a point where we were providing people 
about 1,850 calories a day, 85 percent of what they needed. But 
we're about to face that same predicament again over the next 
90 days.
    Sir, as it relates to your basic question, I just have 
these thoughts. The McGovern-Dole School Feeding Program, one 
of the great things that the United States Congress has done, 
is an extraordinary example of people on both sides of the 
aisle working together with their focus on people who were at 
risk. It started off with a $300 million annual appropriation. 
It's now down to something in the neighborhood of $100 million. 
There is no more powerful investment this country could make in 
seeing that children are fed and go to school. The long-term 
benefit of that short-term investment is enormous. And the 
School Feeding Program is incredibly important.
    Earlier, we were talking about Norman Borlaug. I would 
remind you that Norman Borlaug is a graduate of the University 
of Minnesota, the United States Land Grant College system. This 
remarkable man had this opportunity to change the world because 
of his experience at the University of Minnesota. There is 
nothing much more important than a continuing, sustained, 
growing investment in bringing the best young minds in our own 
country to become competent in agricultural technology and 
research, and we have to find a way to continue to bring the 
emerging agricultural leadership from around the world to study 
at our universities in our country. I was in Auburn this week. 
I'm close to Purdue. The contributions American higher 
education and the land-grant system can make are remarkable.
    Now, there was a profound change in the world, the last 25 
years--by and large, weather-driven. If you look at the report 
the World Bank produced for its spring meeting that talked 
about the change in natural disasters in the world, it said 
that in 2005 there were 400 natural disasters, compared to 100 
in 1975; 2.6 billion people affected by natural disasters 
during the 10 years preceding 2005, compared to 1.6 billion 
during the 10 years preceding that. The World Food Program used 
to be 80 percent development/prevention/mitigation/moderating 
program. Today we are 80-85 percent engaged in responding to 
natural disasters. And so, this limited pot of money that is 
available has been heavily skewed to saving lives in an 
immediate set of circumstances, as opposed to investing in 
programs around the world that, long term, once again, have a 
huge payoff. We have a lot of experience working in Ethiopia, 
where a very small investment of a few tons of food changes a 
community. And still we are trying to respond to the tsunami 
and to the Pakistan earthquake as well as the terrible loss of 
livestock in Sudan, which Senator Lugar mentioned. Well, the 
same thing has happened in northeast Kenya. You know, the 
pastoral way of life in northeast Kenya has been obliterated. 
If you go there, you just see the landscape replete with animal 
carcasses. We used to spend 12 percent of overseas development 
assistance on investment in basic agricultural infrastructure. 
Today, it's 4 percent. Now, the United States, Canada, and the 
United Kingdom are beginning to turn that around, but there is 
no substitute, either on a macro or a micro basis, for 
investment in basic agricultural infrastructure.
    So, I would say that the United States is very good to us, 
overwhelmingly good. But the magnitude of the issues that we 
are faced with--juxtapose the natural-disaster issue, with the 
conflict in the world. For instance, we fed 735,000 people in 
Lebanon in the last 6 weeks. Then you add the HIV/AIDS issue on 
top and you can see--the world is facing unusual challenges.
    Senator Sarbanes. Dr. Gerberding.
    Dr. Gerberding. I wish I had studied the big picture of the 
Federal budget for this before I got here, but I didn't, so I 
can't give you a direct answer to your question. What I can 
tell you, from the CDC perspective, is that we have not had a 
cut in the dollars that we have available for our contribution 
to these activities. But we do agree completely with this 
concern about the balance between the new urgent threats that 
we are responsible for and the long-term urgent realities of 
the problems that we need to handle. And because of the times 
that we're operating in, and because of the terrorism issues 
and the pandemic concerns and the natural disasters, we have 
seen an unbalancing of our investment much more in the 
direction of urgent threats. And I think all of us need to step 
back and say, what are we going to do about the urgent 
realities? We can't continue to pull on the same pie, when 
we've got new challenges that are confronting us.
    The other point I would like to make, from a CDC 
perspective, is that we have, I think, learned something 
remarkable in the context of the PEPFAR program, and that is 
that when you invest, you get results. And that program is 
succeeding in achieving its results, because it had clear goals 
and strategy, but also because we scaled the investment to the 
scope of the problem we were attempting to consider. And I 
think, unlike, maybe, in past eras, when there was always a 
question mark, ``Well, what is this money really doing?'' or, 
``Are we really having an impact?'' we have now, I think, 
developed irrefutable evidence that when you properly invest, 
you get the true results, on a macro scale that you're looking 
for. And I feel very proud of CDC's contribution to that, but I 
also feel like I can look you in the eye and say, if you invest 
here, we can deliver what you expect, and it will be a good 
value for the American taxpayers, to consider these kinds of 
longer-term investments.
    Senator Sarbanes. Mr. Kunder, let me just sharpen the 
question a little bit for you. I'm concerned that the 
international NGOs that have been working in this field are 
geared up to function at a certain level. They bring a lot of 
expertise, a lot of committed and trained manpower and 
womanpower. They raise some money privately to increase the 
amount of resources that are available. If U.S. Government 
support for their programs is reduced, then they're placed in a 
very difficult position. They have this capacity that's been 
built up. They have an available infrastructure. And then, 
they're not making full use of it, which seems to be, if 
nothing else, wasteful. I mean, there's an opportunity there 
that is, sort of, being lost, where you can get a benefit at a 
relatively small marginal or additional cost. And that's my 
perception of one of the consequences of these reductions in 
the budgeted amounts that are reflected in the submission by 
the administration. So, I'd like you to, in addition to the 
broader point, address that point, as well, if you would.
    Mr. Kunder. Yes, sir. I'm going to try to answer your 
question very directly and very specifically, because it's an 
excellent question. In my honest perspective of what's 
happening right now--back to this question of, sort of, 
Millennium Challenge Account and traditional accounts--in his 
new role as director of foreign assistance, what Ambassador 
Tobias is trying to do is take a look at what the U.S. 
Government is doing, in total, in any given country, trying to 
apply the same kind of methodology that was developed in the 
PEPFAR program over to the broader foreign assistance program, 
demanding detailed country operational plans from each of our 
mission directors, and, in fact, from the ambassador in the 
country, trying to get a better look at all of the funding 
streams, the refugee funding stream, the democracy and human 
rights funding stream, the USAID funding stream and the PEPFAR 
funding stream. Now, some of these are not under his direct 
control, like the Millennium Challenge Account, because it's a 
different statutory basis, but----
    Senator Sarbanes. Now, the Millennium Challenge Account 
requires a country--I don't quarrel with this objective--
requires a country to do a number of things----
    Mr. Kunder. Yes, sir.
    Senator Sarbanes [continuing]. Including having in place a 
government that is proceeding according to bona fide and 
accepted----
    Mr. Kunder. Yes, sir.
    Senator Sarbanes [continuing]. Standards, correct?
    Mr. Kunder. Yes, sir.
    Senator Sarbanes. All right. Now, what do you do about 
hungry children in a country that doesn't have such a 
government, and, therefore, is completely outside of any 
possibility of qualifying for the Millennium Challenge Account? 
If you're shifting all your resources to the Millennium 
Challenge Account, you set out these criteria--I don't quarrel 
with the criteria; it's just where we put the resources, and to 
what extent. What happens to hungry children in countries that 
couldn't begin to qualify for the Millennium Challenge Account? 
Perhaps they have a dictatorial, autocratic government. Some of 
these programs have been able to work in those countries in 
order to address, specifically, the problem of hungry children.
    Mr. Kunder. Yes, sir.
    Senator Sarbanes. Now, what happens to hungry children in 
those countries?
    Mr. Kunder. The only thing I want to point out, sir, is 
that this new system is attempting to take a look at whether 
we're spending all the U.S. resources wisely to meet our total 
priorities, including humanitarian priorities, and including 
investing in people. And my honest perspective is that the jury 
is still out, in terms of how this new process is going to 
work--that Ambassador Tobias, my boss, is leading--in terms of 
how we're going to allocate total U.S. Government resources. 
Many of my USAID colleagues are concerned, going into the 
process, that investing in people would come out on the short 
end of the stick, quite bluntly. And what I've seen of the 
process, so far, is that it has not gone in that direction at 
all. And, of course, I'm talking about the entire list of U.S. 
foreign-assistance recipients, which far exceeds the number of 
Millennium Challenge countries around the world.
    So, what we're going to have to do, I think, the Congress 
and those of us in the administration will now take a look at 
the totality of the resource allocation--Millennium Challenge 
Account and this new system being put in place by Ambassador 
Tobias--and see if it does align with the priorities. In my 
view, what I've seen so far, it looks like it is.
    I take your point that if we're taking some resources off 
the top for Millennium Challenge Corporation, then that has to 
be put into the scale, as well. But, as Ann Veneman just said, 
from what we've seen so far, there does appear to be investment 
of those funds into this broader issue of investing in people, 
as well.
    But the jury is still out, because we haven't gone through 
a full cycle of this new paradigm.
    Senator Sarbanes. We've had, and continue to have, 
established programs to deal with some of these problems, that 
seem to have worked fairly well. And my perception now is that 
the resources devoted to those programs is being reduced. 
That's what the budget reflects.
    Now, the amount being committed to the Millennium Challenge 
Account has been significantly raised. At the time the account 
was argued to the Congress, we were told that it wasn't going 
to result in diversion of resources. These were going to be new 
resources, an initiative of further commitment.
    Now, the amount of money being given to the Millennium 
Challenge Account is quite high. The amount they've been able 
to expend is much lower. There's a big reserve there. Now, they 
say to you, ``Well, we're going to spend the funds. We need 
this reserve, we're moving ahead,'' and so forth and so on. 
They keep projecting times when they will have caught up on the 
reserve, and so forth. But that keeps getting extended out, 
that projection.
    All I'm suggesting to you is that you shift some of that 
money back to these existing programs. Let these NGOs go about 
their business. Now, we've managed, in the Congress, to get 
funding for UNICEF back up, every time; but the budget comes in 
with cuts to UNICEF. We've made some adjustments for some of 
these other programs, but we haven't succeeded in doing it 
entirely. And, of course, the administration's budget request 
always has an initial momentum. So, I'm simply suggesting to 
you that you take a harder look at this and see if we can't get 
these programs back up to their previous level so they can move 
ahead. From what I hear, it's tremendously dispiriting to the 
NGOs, and other groups that work off of these contributions, to 
confront this situation. You can examine new approaches all you 
want, but at least let's keep these other approaches working. I 
mean, this is a real problem. You have a current crisis. And as 
has been pointed out by the chairman in his statement and 
people at the table, you're building a future crisis, too, by 
falling short.
    Mr. Kunder. Yes, sir. Well, message received. I mean, as 
Jim was just saying, part of the issue here is that our budget 
at USAID reflects the problem that he was mentioning at World 
Food Program: To some extent, money that we had been putting 
into nutrition programs and development programs, because of 
the large number of crises in the world, has been diverted into 
immediate response. But, long term, we certainly understand the 
value added of the NGO community, and none of this is intended 
to disadvantage the NGO community or fail to leverage what they 
bring to the table.
    Senator Sarbanes. Well, Mr. Chairman, I, regrettably, have 
another hearing. This is a tremendously important subject, 
though, and I, again, commend you for raising it, as well as 
for the way you have pursued it over a sustained period of 
time. This has been very important leadership.
    Before I leave, I want to say, I understand, Mr. Morris, 
that, shortly, you're going to be retiring as executive 
director of the U.N.'s World Food Program. I understand the 
chairman has already made some comments about that, but I think 
I would be remiss if I did not add my own thanks for the 
contributions you've made. You've really done a valiant job 
over the years, and we're very grateful to you. And there are a 
lot of children around the world who are grateful to you.
    Thank you very much, Mr. Chairman.
    The Chairman. Thank you very much, Senator Sarbanes. We 
really appreciate your coming today.
    Mention has been made, during the responses to Senator 
Sarbanes, of the McGovern-Dole program. Obviously, you would 
all be in favor of it. I would ask if you have any further 
advice about the situation. Mr. Morris has outlined the 
diminishing amounts of money coming from our Government, and 
obviously there are many reasons why this may be so. I just 
wanted to ask if anyone else on the panel has a comment on the 
McGovern-Dole program.
    Yes, Mr. Ward.
    Ambassador Ward. Well, Mr. Chairman, I would just cite an 
example in which this tremendously important program is helping 
in ways that actually go far beyond just the provision of food 
and nutrition.
    In Afghanistan, girls had been--were denied, under the 
Taliban, access to education. And one of the major goals of the 
coalition in Afghanistan, and of NGOs that are working there, 
is to increase the access of girls to formal education, and to 
also help women who were teachers in the past to find their way 
back into the teaching profession. And it's been through a 
program funded by McGovern-Dole that we've been able to benefit 
young girls in grades one through three by keeping them in 
school and also sending them home with food rations that 
benefit them and their families. This has materially reduced 
problems, such as diarrhea and constant vomiting, that are 
endemic in rural Afghanistan, and has really created a new sort 
of environment in which there can be a culture of learning for 
girls, as well as boys. So, this is an incredibly important 
program, and we certainly support it and are grateful for the 
assistance, for our ability to access it.
    The Chairman. Just let me indicate that, as Senator 
Sarbanes' questions indicated, we've had debate within the 
committee. The Millennium Challenge budget comes before our 
committee, and we've been supportive of that effort. Now, 
sometimes the argument has been made that this subtracts from 
various other categorical grant programs. And, as Mr. Kunder 
has said, there is an attempt on the part of the State 
Department to rationalize, with Ambassador Tobias now, all the 
programs. It was a bold initiative, in my judgment, by 
Secretary Rice. The jury is still out on how all this works, 
what finally occurs. And Mr. Kunder is a large part of trying 
to make certain it does work well. But this is certainly a 
debatable area, as to how allocations go. And when we get over 
to the Agriculture Committee and the budget there, we have a 
whole new set of arguments, a potential new farm bill next 
year. Many groups have pointed out this offers a remarkable 
opportunity, in terms of nutrition in this country, as well as 
abroad, which, indeed, it does.
    So, these are important issues to be before the Senate, and 
the Congress as a whole, as well as the administration, 
because, essentially, eventually people negotiate and try to 
work out, really, what the resources are that are going to 
occur, and in what form. And that's the reason we've initiated 
that question as a part of this panel.
    Let me just ask, maybe as a final summary question--we've 
raised the issues of the first Millennium Development Goal. And 
Secretary Veneman and UNICEF provided this report, Progress for 
Children, a report card on nutrition, as of--and this is number 
4--as of May 2006. All of you, I'm certain, have seen the 
report. Maybe there are other reports that offer indicators of 
progress. Who's in charge? How do we organize this? How do we 
know what is occurring? And at least this report does have maps 
and statistics, and so forth.
    Let me just ask, first of all, for reaction that any of you 
might have to the report. And, second, are there other reports, 
or is there other data, that ought to be made a part of this 
record so that at least at this benchmark time, as we have 
oversight of this area, we're aware of that and can include 
that in this record?
    Secretary Veneman, let me ask you, first of all, to comment 
on the report you have thoughtfully produced and distributed to 
all of us.
    Ms. Veneman. Mr. Chairman, I appreciate this question, 
because I think--as I said earlier, I think that being able to 
access data, the best available data, to determine where the 
gaps are in reaching agreed goals is absolutely critical to 
putting resources in the right places. UNICEF began this 
process awhile back to take--we do two of these Progress for 
Children reports each year.
    The Chairman. I see.
    Ms. Veneman. And we began a process awhile back of taking 
each Millennium Development Goal that applies to children--we 
like to say ``Children are at the heart of the Millennium 
Development Goals''--and to address each of those issues 
separately and to measure the progress that we know has been 
made, or not made.
    On Thursday, I will be releasing the next in the series. It 
will be on Millennium Development Goal 7 and the target, 
particularly, on water and sanitation.
    The Chairman. Is that what the area is, on 7?
    Ms. Veneman. Right.
    The Chairman. Water and sanitation.
    Ms. Veneman. Well, it's on environment.
    The Chairman. I see.
    Ms. Veneman. Millennium Development Goal 7 covers the 
environment, generally, but water and sanitation, and reducing 
the number--I mean, the percentage of people without clean 
water and sanitation, is the--one of the key targets there. It 
will show that the world has made considerable progress in 
addressing the issue of clean water. Sanitation is much further 
behind. But, in fact, all of these issues, as you know, really 
intersect with each other. I mean, as we've talked about today, 
clean water and sanitation are critical to whether or not a 
child actually can maintain accurate--or adequate nutrition, 
because if they have diarrheal diseases, obviously they're 
going to suffer from malnutrition, as well.
    And so, we are looking--we, just last week, held a big 
symposium on MDG4, child survival. And, again, the progress is 
very uneven, but we are seeing some promising programs that do, 
with an integrated, you know, nutrition-and-healthcare 
approach, begin to reduce those absolute percentages in so many 
of the areas. I think one of the most difficult has been 
maternal mortality, very difficult to both measure and to get 
good results.
    Education, I think the--we've done a report on education, 
showing that the world is making tremendous progress in 
universal primary education, which is the measure of the 
education goal, although it is lacking somewhat in the overall 
gender-equity goal, and, particularly, there are still less 
girls than boys in school, and that is something we have to 
address worldwide.
    So, I think as you look at the whole range, it is important 
to look at the progress and see what kind of actions we need to 
take in the next 9 years, before the deadline of 2015, to make 
these a reality. I think if we all have a sense of urgency, we 
can do it.
    The Chairman. Mr. Morris.
    Mr. Morris. I would call your attention to this remarkable 
document that UNICEF produces each year, the State of the 
World's Children. In terms of an analysis, as well as a factual 
report on annual progress, this is the bible in the world.
    I would also call your attention to our publication this 
year, Hunger and Learning, which is one of the undergirding 
documents of the Ending Child Hunger Initiative.
    [Editor's note.--The publication mentioned were not 
reproducible in this hearing but will be maintained in the 
committee's permanent record.]
    Reform of U.S. overseas development assistance is really 
important, and I would hope that one of the longer term 
measurements, on how the reform works is a measurement of the 
outcome of improving child nutrition around the world. This is 
at the base of all the Millennium Development Goals--hunger and 
nutrition--you can't make progress on any of them if people are 
starving and poorly nourished.
    And my final comment, sir, would be, as we talk about 
sustainability. I don't believe there is any better approach to 
people being able to sustain themselves, than to be healthy, to 
be well nourished, to be educated, and to be productive. That 
gives them the capacity to take care of themselves, to sustain 
their families, and ultimately their communities. We have a 
huge debate about sustainability, but, I don't know how you 
fill the bucket up, other than a drop at a time or addressing 
the issues a child at a time.
    And the fact of the matter is, parents around the world are 
the same as they are in Indiana. They care about their kids. 
And when they learn that washing hands with soap works, they'll 
buy the soap. And communities, when they learn that children 
are fed at school they will build new schools and their parents 
will volunteer, just like they do in our hometown. And this is 
not only the essence of community-building, but also the 
essence of sustainability.
    Thank you.
    The Chairman. Yes, Mr. Ward.
    Ambassador Ward. Mr. Chairman, I would just like to comment 
on the importance of having really good data about outcomes in 
our programs. And that is not an area in which, in the past, 
either governments or NGOs have excelled. We know how much 
money we've put in. We have, in the past, not always known 
what's come out.
    And we've realized this at World Vision, and, some years 
ago, we formulated a series of transformational development 
indicators that are very concrete. We're looking now at how 
those transformational development indicators and the 
Millennium Challenge Goals can really come together. And we're 
using them in our programs to provide--and we survey each of 
our programs every 3 years--to provide measurable data. So, 
over time, we'll be able to present to our--to the growing 
group of Americans who are concerned about these issues, 
through vehicles, such as the ONE Campaign that unites NGOs and 
private industry and so many others in advocacy for the poor, 
will be able to present hard data that will hopefully be 
compelling and provide a consensus for moving forward on these 
issues.
    The Chairman. Dr. Gerberding.
    Dr. Gerberding. Just a quick observation. I couldn't agree 
more with the importance of data and science and evidence 
being, ultimately, the driver of all this, but I think we've 
used data for a long time to try to draw attention to the 
problems. I started out with some data about the number of 
children who die from various conditions every day around the 
world. But I think it's now time to use that data to deliver 
the solutions and to let people know that it isn't just about 
the problem. We know what to do. We have the solutions, and 
it's a good investment in their resources to help us move those 
solutions out into broader and broader communities. Success 
sells. And I think we need to put as much emphasis on what does 
work as we do on what are the problems remaining to be solved.
    The Chairman. Mr. Kunder.
    Mr. Kunder. Sir, we make available an annual report to the 
Congress on the Child Survival and Health Account. I think this 
gets at some of the questions of Senator Sarbanes--that is an 
overview of how we are spending the money that the Congress has 
entrusted to us in this area. Also, in preparation for this 
hearing, one of the documents I read was something called 
Infant and Young Child Feeding. It's what USAID calls a 
``program and technical report.'' We'd be glad to make that 
available to the committee, as well, for possible incorporation 
in the record.
    [Editor's note.--The information mentioned was not 
reproducible in this hearing but will be maintained in the 
committee's permanent record.]
    Mr. Kunder. But it's a primer on some of the critical 
issues that we've been discussing today.
    The Chairman. That would be very helpful.
    Let me just offer, anecdotally, that one of the great 
points of emphasis of our committee has been governmental 
corruption, or corruption of delivery systems. We've taken a 
look at the inter-development bank businesses and the World 
Bank and elsewhere. And the World Bank meeting has just been 
seized with this problem in which there was quite an 
international conversation about the rigor that the World Bank 
and its bureaucracy ought to have with this. But it was a 
healthy conversation, I think, with a good outcome.
    For other purposes, we went to study weapons of mass 
destruction in Albania, 2 years ago. I found one of the great 
preoccupations of the Albanian Government was the Millennium 
Challenge program. Albania had not been on the list of 
countries being considered. And one reason was the pervasive 
corruption in almost all elements of that government with a 
closed society that had opened up but had all sort of problems. 
But the fact was, the Albanians, seeing this program, wanted to 
know, ``How do we get in line? What do we need to do?'' And 
they appreciated that in order to do that, they would have to 
clear up the pervasive corruption in their government. We could 
hardly have asked for more than governments that were not even 
involved in our programs to be seeking to be a part of that 
situation.
    I returned this year, and they've made a lot of headway. 
They are on a provisional list, sort of a watchlist of people 
taking a look, now, very carefully. But there was no data from 
Albania. The data from Albania now is just beginning to come 
in. And, as you've all pointed out, there are gaps in the 
reports that we have looked at in which data are just not 
available. This always leads us to believe, here on this 
committee, as we examine international organizations, even 
reputable banks and so forth, that without there being this 
kind of oversight, this determination, on the part not just of 
our country, but the world, to monitor the delivery of the 
services--Does the bridge get built? Does the road ever 
happen?--quite apart from whether the food is delivered.
    Now, each of you have these problems in the organizations 
that you head, or that you supervise. And they're not easy. And 
the farther out you get into various difficult areas of the 
world, the more that's going to be a problem. And, in some 
cases, maybe you have to make compromises, that in order to 
feed starving people, whether you're fastidious to a fault, 
that somebody actually puts it in that place, to that person, 
it sort of breaks down. But I raise this point, because I think 
it is important that there are world standards that I believe 
are improving for both data--reporting--and at least the 
perception of corruption, if not the rooting out of it. And our 
committee reports on this corruption did not really make great 
waves in this country. But I would just say, abroad, this 
really created some waves as the free press, or not so free 
press in some places, began to pick up on this. And just making 
Mr. Morris's point again, or Ms. Veneman's, often the country 
itself has to take some responsibility for the plan, as well as 
for the execution. And to the extent that there is a more 
visible free press or NGOs really are pervasive, in terms of 
their outlook, the quality of that delivery and what actually 
happens to real people in this life is likely to improve, we 
think.
    So, all of these things are interrelated, and we've taken 
advantage, maybe, of a conference or a hearing today on world 
hunger to try to make that point about these intersections, 
both governmentally, as well as even in the cultures, various 
governments.
    Let me ask, before we conclude the hearing, if anyone has a 
final comment that you would like to make that would be a part 
of our record today.
    Yes, Mr. Kunder.
    Mr. Kunder. If the committee would just indulge me for one 
minute, sir. All of us lead organizations, have really 
courageous and highly skilled technical people in the field, 
and I just would like to note, for the record, that two of our 
staff were killed in Nepal during the helicopter crash in the 
last couple of days--Margaret Alexander, one of our senior 
Foreign Service officers, and Dr. Bijnan Acharya, who was one 
of our Foreign Service nationals from Nepal, one of those folks 
who works for the U.S. Government and their own people around 
the world very skillfully and courageously. And all of us lead 
organizations where a lot of people have folks at risk all the 
time, certainly in Darfur right now, just appreciate the 
opportunity to mention this in front of the committee.
    The Chairman. Well, I thank you for doing so, and for that 
recognition.
    Well, we appreciate the witnesses very much, your original 
testimony, and your forthcoming responses to our questions.
    The hearing is adjourned.
    [Whereupon, at 11:15 a.m., the hearing was adjourned.]

                                  <all>

</pre></body></html>
